USCA11 Case: 20-13899

Date Filed: 04/02/2021

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-1389945
CHRISTOPHER SECKINGTON,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Christopher Seckington, a Florida prisoner serving a 25-year sentence for amphetamine
trafficking and possession of cannabis, seeks a certificate of appealability (“COA”) and in forma
pauperis (“IFP”) status in order to appeal the district court’s denial of his pro se 28 U.S.C § 2254
petition.1 In order to qbtain a COA, Mr. Seckington must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). He satisfies this requirement by
demonstrating that “reasonable jurists would find the district court’s assessment of the

1 Although Mr. Seckington raised 12 claims in his § 2254 petition, his motion for COA
argues only 5 claims. Because he failed to mention the remaining claims, he abandoned them.
See Jones v. Sec >'. Dep 7 of Corn. 607 F.3d 1346, 1353-54 (11th Cir. 2010) (this Court “will not
entertain the possibility of granting a certificate of appealability” where the petitioner “does not
provide facts, legal arguments, or citations of authority that explain why he is entitled to a
certificate...”).

/PPt'W5P< A

USCA11 Case: 20-13899

Date Filed: 04/02/2021

Page: 2 of 3

constitutional claims debatable or wrong,” or that the issues “deserve encouragement to proceed
further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quotation marks omitted).
In Claim 1, Mr. Seckington argued that counsel failed to withdraw upon his reappointment,
despite having stated in his motion to withdraw that he had an ethical conflict, and the
attomey/client relationship was irretrievably broken. Reasonable jurists would not debate the
district court’s denial of this claim because Mr. Seckington failed to show that counsel labored
under an actual conflict of interest or had conflicting interests that adversely affected his
performance. See Mickens k Taylor, 535 U.S. 1^2, 170-71 (2002).

To the extent that Mr.

Seckington raised a claim under United States v. Cronic, 466 U.S. 648,659 (1984), it fails because
the record reveals that counsel subjected the state’s case to adversarial testing.
In Claims 5 and 6, Mr. Seckington argued that counsel failed to challenge the quantity of
methamphetamine attributed to him and argue for the application of the rule of lenity related to the
quantity of methamphetamine. Reasonable jurists would not debate the denial of this claim, as
counsel had no basis to challenge the quantity of methamphetamine attributed to Mr. Seckington,
or the methodology by which the forensic chemist weighed the liquids, under the language of Fla.
Stat. § 893.135(l)(f). See Wilder v. State, 194 So. 3d 1050, 1053 (Fla. Dist. Ct. App. 2016)
(concluding that the statute “clearly contemplates the punishment for trafficking of ‘any’ mixture
of methamphetamine and does not set a minimum threshold amount of methamphetamine that
must be part of the mixture.”). Accordingly, counsel had no basis to ask.for the rule of lenity to
be applied in this case.
In Claim 7, Mr. Seckington argued that his 25-year sentence was cruel and unusual.
Reasonable jurists would not debate the denial of this claim. Mr. Seckington was convicted of a
first-degree felony for amphetamine trafficking, for which there is a maximum sentence of 30

2

;
USCA11 Case: 20-13899

Date Filed: 04/02/2021

Page: 3 of 3

years in prison and a mandatory minimum term of 15 years in prison.

See Fla. Stat. §§

775.082(3)(b)l and 893.135(l)(f)l .c. This Court previously has stated that “a sentence within the
limits imposed by statute is neither excessive nor cruel and unusual under the Eighth Amendment.”
United States v. Johnson, 451 F.3d 1239, 1243 (11th Cir. 2006).
Finally, in Claim 9, Mr. Seckington argued that counsel failed to argue that he did not
violate the “legislative intent” of the trafficking statute, which was to punish those who deal in
large quantities of dangerous illegal drugs. The record reveals that Mr. Seckington did not raise
this claim in his state post-conviction proceedings, and he has neither alleged nor shown either
cause and prejudice or a fundamental miscarriage ofjustice to excuse his procedural default. See
Coleman v. Thompson, 501 U.S. 722, 749-50 (11th Cir. 1991).
Accordingly, Mr. Seckington’s CO Amotion is DENIED, and his IFP motion is DENIED
as moot.

/s/ Jill Pryor_____
UNITED STATES CIRCUIT JUDGE

3

4

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 1 of 25 PagelD 2818

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION

CHRISTOPHER M. SECKINGTON,
Petitioner,
v.

CASE NO. 6:19-cv-713-Orl-31EJK

SECRETARY, DEPARTMENT
OF CORRECTIONS, et al„
Respondents.

ORDER
This cause is before the Court on a Petition for Writ of Habeas Corpus ("Petition,"
Doc. 1) filed pursuant to 28 U.S.C. § 2254. Respondents filed a Response to the Petition
("Response," Doc. 19) in compliance with this Court's instructions and with the Rules
Governing Section 2254 Cases for the United States District Courts. Petitioner filed a Reply
(Doc. 22). Petitioner alleges twelve claims for relief in the Petition. For the following
reasons, the Petition is denied.
I.

Procedural History

Petitioner was charged in the Eighteenth Judicial Circuit Court in and for Seminole
County, Florida, with trafficking in 200 grams or more of methamphetamine (Count One)
and possession of cannabis (Count Two). (Doc. 21-2 at 7). After a jury trial, Petitioner was
convicted as charged. (Doc. 21-3 at 15). The trial court sentenced Petitioner to a twentyfive-year term of imprisonment with a fifteen-year mandatory minimum term for Count

APPEWDrx B

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 2 of 25 PagelD 2819

One and to time served for Count Two. (Id. at 16). Petitioner appealed, and the Fifth District
Court of Appeal ("Fifth DCA") affirmed per curiam (Id. at 52).
Petitioner filed a motion to correct an illegal sentence pursuant to Rule 3.800(a) of
the Florida Rules of Criminal Procedure. (Id. at 56-83). The trial court denied the motion,
noting that Petitioner's claim was not cognizable in a Rule 3.800(a) motion. (Id. at 85-86).
Petitioner appealed, and the Fifth DCA affirmed per curiam. (Id. at 111).
Petitioner subsequently filed a petition for writ of habeas corpus with the Fifth DCA
in which he alleged four claims of ineffective assistance of appellate counsel. (Id. at 12469). The Fifth DCA denied the petition without discussion. (Doc. 21-4 at 22).
Petitioner then filed a motion for post-conviction relief pursuant to Rule 3.850 of the
Florida Rules of Criminal Procedure. (Id. at 29-80). After filing two amended motions (Doc.
21-5 at 5-53 and Doc. 21-6 at 4-52), the trial court summarily denied relief. (Doc. 21-7 at 210). The Fifth DCA affirmed per curiam. See Seckington v. State, 241 So. 3d 853 (Fla. 5th DCA
2017) (table).
Petitioner filed several motions to disqualify the trial court judge, which were
denied. (Doc. 21-8 at 79-122). Petitioner then filed a petition for writ of prohibition in the
Fifth DCA seeking disqualification of the trial court judge. (Id. at 123-28). The Fifth DCA
denied the petition. (Id. at 133). Petitioner subsequently filed approximately six additional
petitions for writ of prohibition, which were denied. (Doc. Nos. 21-8 at 141-46; Doc. 21-9 at
2-34, 77-84). Petitioner also filed two petitions for writ of mandamus seeking similar relief,
which were denied. (Doc. 21-9 at 41-76). Finally, the Fifth DCA entered an order pursuant
2

>

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 3 of 25 PagelD 2820

to State v. Spencer, 751 So. 2d 47 (Fla. 1999), finding Petitioner had abused the judicial
process and should be barred from further pro se filings. (Id. at 97). The Supreme Court of
Florida declined to accept discretionary review of that order. (Id. at 125).
II.
A.

Legal Standards

Standard of Review Under the Antiterrorism Effective Death Penalty Act
("AEDPA")

Pursuant to the Antiterrorism Effective Death Penalty Act ("AEDPA"), a federal
court may not grant federal habeas relief with respect to a claim adjudicated on the merits
in state court unless the adjudication of the claim:
(1)

resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States; or

(2)

resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.

28 U.S.C. § 2254(d). The phrase "clearly established Federal law," encompasses only the
holdings of the United States Supreme Court "as of the time of the relevant state-court
decision." Williams v. Taylor, 529 U.S. 362, 412 (2000).
"[Sjection 2254(d)(1) provides two separate bases for reviewing state court
decisions; the 'contrary to' and 'unreasonable application' clauses articulate independent
considerations a federal court must consider." Maharaj v. Sec'y for Dep't of Corr.,A32 F.3d

3

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 4 of 25 PagelD 2821

1292, 1308 (11th Cir. 2005). The meaning of the clauses was discussed by the Eleventh
Circuit Court of Appeals in Parker v. Head, 244 F.3d 831, 835 (11th Cir. 2001):
Under the "contrary to" clause, a federal court may grant the writ if the
state court arrives at a conclusion opposite to that reached by [the United
States Supreme Court] on a question of law or if the state court decides a
case differently than [the United States Supreme Court] has on a set of
materially indistinguishable facts. Under the "unreasonable application"
clause, a federal habeas court may grant the writ if the state court identifies
the correct governing legal principle from [the United States Supreme
Court's] decisions but unreasonably applies that principle to the facts of the
prisoner's case. Id. (quoting Williams, 529 U.S. at 412-13). Even if the federal
court concludes that the state court applied federal law incorrectly, habeas
relief is appropriate only if that application was "objectively
unreasonable." 1 Id. (quotation omitted).
Finally, under § 2254(d)(2), a federal court may grant a writ of habeas corpus if the
state court's decision "was based on an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding." However, the state court's
"determination of a factual issue... shall be presumed correct," and the habeas petitioner
"shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence." 28 U.S.C. § 2254(e)(1); see also Parker, 244 F.3d at 835-36.
B.

Standard for Ineffective Assistance of Counsel

1 In considering the "unreasonable application inquiry," the Court must
determine "whether the state court's application of clearly established federal law was
objectively unreasonable." Williams, 529 U.S. at 409. Whether a state court's decision was
an unreasonable application of law must be assessed in light of the record before the state
court. Holland v. Jackson, 542 U.S. 649, 652 (2004) (per curiam); see also Bell v. Cone, 535 U.S.
685, 697 n.4 (2002) (declining to consider evidence not presented to state court in
determining whether the state court's decision was contrary to federal law).
4

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 5 of 25 PagelD 2822
f
/

‘

In Strickland v. Washington, 466 U.S. 668 (1984), the United States Supreme Court
established a two-part test for determining whether a convicted person is entitled to relief
on the ground that his counsel rendered ineffective assistance: (1) whether counsel's
performance was deficient and "fell below an objective standard of reasonableness"; and
(2) whether the deficient performance prejudiced the defense. Id. at 687-88. A court must
adhere to a "strong presumption that counsel's conduct falls within the wide range of
reasonable professional assistance." Id. at 689-90. "Thus, a court deciding an actual
ineffectiveness claim must judge the reasonableness of counsel's challenged conduct on
the facts of the particular case, viewed as of the time of counsel's conduct." Id. at 690; see
also Gates v. Zant, 863 F.2d 1492,1497 (11th Cir. 1989) ("Strickland teaches that courts must
judge the reasonableness of the challenged conduct on the facts of the particular case,
viewed as of the time of the conduct.").
III.
A.

Analysis

Claim One

Petitioner alleges that the trial court erred by reappointing an attorney to represent
him despite the fact that counsel had a conflict of interest. (Doc. 1 at 6). Petitioner raised
this claim in his Rule 3.850 proceedings, and the trial court denied relief, finding that
Petitioner had failed to allege any specific facts demonstrating that he was entitled to
relief on this claim. (Doc. 21-7 at 8-9). The Fifth DCA affirmed per curiam. See Seckington,
241 So. 3d at 853.
Prior to trial, Petitioner moved to represent himself. (Doc. 21-2 at 20). Additionally,
5

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 6 of 25 PagelD 2823

defense counsel Justin Hausler ("Hausler") moved to withdraw from representation,
citing Petitioner's dissatisfaction with his representation and noting that the attorneyclient relationship was irrevocably broken. (Id. at 22). The trial court granted the motions
and allowed Petitioner to represent himself. (Id. at 25). However, the Court also directed
Hausler to remain as standby counsel. (Id.). Hausler was reappointed to represent
Petitioner and acted as defense counsel at trial. (Doc. 21-2 at 35, 41).2
The Sixth Amendment requires the State to not only appoint counsel for indigent
defendants, but also gives defendants the right to counsel "unburdened by a conflict of
interest that impedes zealous representation." Dallas v. Warden, 964 F.3d 1285,1302 (11th
Cir. 2020) (citing Cuyler v. Sullivan, 446 U.S. 335, 344 (1980)). However, to prevail on a
conflict of interest claim, a petitioner must show that a defense attorney actively
represented conflicting interests in such a way that adversely affected counsels'

}Zl S.CM2T?
performance. Mickens v. Taylor, 535 U.S. 162 (2002). "An 'actual conflict' of interest occurs
when a lawyer has inconsistent interests." Freund v. Butterworth, 165 F.3d 839, 859 (11th
Cir. 1999) (citing Smith v. White, 815 F.2d 1401,1405 (11th Cir. 1987)). A mere possible or
speculative conflict is insufficient. See Cuyler, 446 U.S. at 350. "To prove adverse effect, a
defendant needs to demonstrate: (a) that the defense attorney could have pursued a
r, g.

plausible alternative strategy, (b) that this alternative strategy was reasonable, and (c)

''W'
2 Neither party provided the Court with the trial court's order reappointing
Hausler to represent Petitioner. The Court conducted a review of the online docket in the
Eighteenth Judicial Circuit Court in and for Seminole County, and it appears that a
written order was not entered.
6

Case 6:19-CV-00713-GAP-EJK Document 39 Filed 09/10/20 Page 7 of 25 PagelD 2824

A that the alternative strategy was not followed because it conflicted with the attorney's
external loyalties." Reynolds v. Chapman, 253 F.3d 1337,1343 (11th Cir. 2001).
Petitioner fails to meet his burden because he has not presented any evidence that
counsel labored under an actual conflict of interest or had conflicting interests that
- vuori^Y -3
impeded his ability to zealously represent Petitioner. Petitioner states that counsel could
or should have followed an alternative strategy at trial. However, on the morning of trial,
\0
Petitioner made no objection to Hausler's representation. A review of the trial transcript
reveals that Petitioner told the trial court that he was satisfied with Hausler's
representation and that there were no other witnesses or evidence that he wished to be
\v

presented. (Doc. 21-2 at 198-99). There is no indication that counsel's failure to pursue an
alternate defense strategy was due to conflicting interests or loyalties. Therefore,
Petitioner is not entitled to relief on this claim.
\ C To the extent Petitioner also contends that counsel's representation amounted to a
Cronic violation, his claim is also unsuccessful. In United States v. Cronic, 466 U.S. 648
(1984), the Supreme Court stated "if counsel entirely fails to subject the prosecution's case
to meaningful adversarial testing, then there has been a denial of Sixth Amendment rights
that make the adversary process itself unreliable." 466 U.S. at 659. Furthermore, in such
situations where counsel fails to subject the State's case to adversarial testing; no showing
of prejudice is required because prejudice is presumed. Id. The Court notes that trial
counsel properly subjected , the. .case to adversarial testing by presenting opening
i

' i

■

■

'

•

arguments at trial, thoroughly cross-examining the State's witnesses,
arguing a motion
•f' f
7

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 8 of 25 PagelD 2825
'7

W
for judgment of acquittal, and making closifig arguments. (Doc. 21-2 at 35-281).
The state court's denial of this claim was neither contrary to, nor an unreasonable
application of, clearly established federal law. Accordingly, Claim One is denied
pursuant to § 2254(d).
B.

Claim Two

Petitioner contends that trial counsel was ineffective for failing to make specific
arguments when moving for a judgment of acquittal. (Doc. 1 at 12). In particular,
Petitioner asserts that counsel should have argued that Petitioner was not the exclusive
occupant of the premises and therefore, no independent proof was presented that he
possessed the methamphetamine and cannabis. (Id.). Petitioner raised a similar claim in
his Rule 3.850 proceedings, and the trial court summarily denied relief stating the
following:
The Defendant acknowledges in the claim that he is asserting that the
trial court erred in denying his JOA. Issues of ordinary trial error,
reviewable on appeal, are not cognizable under rule 3.850. Bruno v.
State, 807 So. 2d 55, 63 (Fla. 2001); Straight v. State, 488 So. 2d 530 (Fla.
1986); Childers v. State, 782 So. 2d 946 (Fla. 4th DCA 2001); State v.
Johnson, 651 So. 2d 145 (Fla. 2d DCA 1995). The Defendant cannot
"counter [this] procedural bar" by "couch[ing] his claim ... in terms
of ineffective assistance of counsel in failing to preserve or raise those
claims." Cherry, 659 So. 2d at 1072. Therefore, the Defendant has failed
to demonstrate an entitlement to relief ....
v.

(Doc. 21-7 at 8). The Fifth DCA affirmed per curiam. See Seckington, 241 So. 3d at 853.
A per curiam affirmance of a trial court's finding of procedural default is a
sufficiently clear and express statement of reliance on an independent and adequate state
8

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 9 of 25 PagelD 2826

ground to bar consideration by the federal courts. Harmon v. Barton, 894 F.2d 1268,1273
(11th Cir. 1990); see also Ferguson v. Sec'y Dep't ofCorr., 580 F.3d 1183,1218 (11th Cir. 2009).
Therefore, this Court will apply the state procedural bar.
Procedural default may be excused only in two narrow circumstances: if a
petitioner can show (1) cause and prejudice or (2) actual innocence. Murray v. Carrier, 477
U.S. 478,496 (1986); Wright v. Hopper, 169 F.3d 695, 703 (11th Cir. 1999). Petitioner has not
demonstrated cause or prejudice, nor has he shown the applicability of the actual
innocence exception. Accordingly, Claim Two is procedurally barred.3
C.

Claim Three

Petitioner alleges that trial counsel was ineffective for failing to advance the
defense theory that he lacked knowledge regarding the illicit nature of the substances

3 Alternatively, if this claim is not procedurally barred it is without merit.
Petitioner has not shown that counsel's failure to argue that there was no independent
proof that he possessed the methamphetamine amounts to deficient performance or that
prejudice resulted. The State presented evidence that although Petitioner shared a home
with his brother, Petitioner's bedroom was locked, and his brother did not have a key.
(Doc. 21-2 at 63-64 and 74). Law enforcement found numerous items in Petitioner's locked
bedroom and bathroom that could be used to manufacture methamphetamine, including
coffee filters, plastic and glass jars, salt, plastic tubing, hydrogen peroxide, alcohol,
propane fuel, a mask with air purifying respirators, and two five-gallon buckets in the
shower containing two plastic bottles holding a clear liquid, a powdery substance, and
lithium strips. (Id. at 94-99 and 116-22). The liquid tested positive for methamphetamine
(Id. at 113 and 188). While law enforcement did not know to whom these items belonged,
after viewing the evidence in the light most favorable to the prosecution, any rational
trier of fact could have found that Petitioner exclusively possessed these items and
therefore was guilty of trafficking in methamphetamine. See Jackson v. Virginia, 443 U.S.
307, 319 (1979). Counsel's failure to make an argument regarding joint occupancy and
constructive possession did not result in prejudice. Accordingly, this claim is denied.
9

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 10 of 25 PagelD 2827

found in his residence. (Doc. 1 at 15). In support of this claim, Petitioner states that
counsel should have questioned investigators and the laboratory technician about
whether a lay person would know that the clear liquid found in two bottles in his
bathroom contained methamphetamine. (Id.). Petition contends that had counsel
properly questioned these witnesses, they would have testified that there was no way for
a lay person to know what was contained in the bottles, and therefore, he would have
been entitled to a jury instruction on lack of knowledge. (Id.).
Petitioner raised this claim in his Rule 3.850 proceedings, and the trial court
summarily denied relief, concluding that because Petitioner told the court during trial
that counsel had not failed to present any evidence or call witnesses, he could not
demonstrate deficient performance. (Doc. 21-7 at 5). The Fifth DCA affirmed per curiam.
See Seckington, 241 So. 3d at 853.
Petitioner is not entitled to relief on this claim. The Court noted supra that
Petitioner told the trial court that he was satisfied with Hausler's representation and that
there were no other witnesses or evidence that he wished to be presented. (Doc. 21-2 at
198-99). When Petitioner made these statements, he was aware that counsel had not
questioned the witnesses regarding whether a lay person would know that the liquid
found was methamphetamine. Therefore, Petitioner waived his claim that counsel acted
deficiently in this regard.
Alternatively, Petitioner has not shown that but for counsel's actions that the result
of the proceeding would have been different. In Florida, lack of knowledge regarding the
10

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 11 of 25 PagelD 2828

illicit nature of a substance is an affirmative defense to a drug trafficking charge. See
McMillion v. State, 813 So. 2d 56 (Fla. 2002). However, even if counsel had questioned the
witnesses about whether a lay person would know of the illicit nature of the liquid and
requested a jury instruction on lack of knowledge, Petitioner cannot show that he was
prejudiced.
Lawrence Seckington ("Seckington"), Petitioner's brother, testified that they lived
together in a three-bedroom home. (Doc. 21-2 at 63-64). Petitioner lived in the master
bedroom, the door to the room had a lock, and Seckington did not have a key to that door.
(Id. at 74). On cross-examination, Seckington testified that Petitioner had friends come
over at all hours of the day and night and sometimes a friend would stay overnight. (Id.
at 78 and 81). Additionally, a friend of Petitioner's had stayed at their house for two days
during his cancer treatment. (Id. at 79).
Charles Locher ("Officer Locher"), an officer with the Sanford Police Department
who was assigned to the Drug Enforcement Administration ("DEA") task force
investigating the matter, testified that when he searched Petitioner's locked bedroom, he
observed materials that could be used to make methamphetamine, including coffee
filters, containers, glass jars, and two five-gallon buckets in the shower of the master
bathroom containing two plastic bottles holding a clear liquid, a powdery substance, and
lithium strips. (Id. at 94 and 99). Officer Locher identified that buckets and bottles as a
"one-pot" in which ammonium nitrate, fuel, fertilizer, pseudoephedrine, lithium strips,
and water are used to make methamphetamine. (Id. at 94-97). The liquids tested positive
11

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 12 of 25 PagelD 2829

for methamphetamine. (Id. at 113).
Officer Locher also identified objects found in Petitioner's bedroom that could be
associated with manufacturing methamphetamine, such as salt, plastic tubing, plastic
jars, hydrogen peroxide, alcohol, propane fuel, a mask with air purifying respirators, and
a gas treatment. (Id. at 116-22). On cross-examination Officer Locher stated that he did
not know to whom any of the items belonged. (Id. at 137). On redirect examination,
Officer Locher noted that all of the items collected for evidence were found in Petitioner's
bedroom as opposed to other areas of the home. (Id. at 144).
In light of the evidence presented at trial, the Court concludes Petitioner has not
met his burden of demonstrating that but for counsel's actions, he would not have been
convicted. The standard Florida jury instruction on lack of knowledge also includes the
following language: "You may but are not required to infer that defendant was aware of
the illicit nature of the controlled substance if you find that he possessed the controlled
substance." Fla. Std Jury Instr. (Crim) 25.7(a). The State presented evidence that the
methamphetamine and numerous items employed in the manufacturing of such were
found in Petitioner's locked bedroom and bathroom. Even though other people entered
and exited the bedroom, the jury would have been permitted to infer that Petitioner was
aware of the nature of the substance due to its location in the bedroom over which he had
exclusive control.
The state court's denial of this claim was not contrary to, or an unreasonable
application of, clearly established federal law. Accordingly, Claim Three is denied
12

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 13 of 25 PagelD 2830

pursuant to § 2254(d).
D.

Claim Four

Petitioner argues that trial counsel was ineffective for failing to hire a fingerprint
expert and forensic chemist to test the items seized in connection with manufacturing
methamphetamine. (Doc. 1 at 17-18). Petitioner asserts that had the jury heard testimony
that his fingerprints were not found on any of the seized items, he would have been
acquitted. (Id. at 18). Furthermore, Petitioner states that a forensic chemist would have
testified that the liquid did not contain a "usable" amount of methamphetamine but
instead was merely urine from a methamphetamine user combined with household
cleaning solutions. (Id.). Petitioner raised this claim in his Rule 3.850 proceedings, and the
trial court denied relief, noting that because Petitioner told the court that counsel had not
failed to present evidence or call witnesses, he could not demonstrate deficient
performance. (Doc. 21-7 at 7). The Fifth DCA affirmed per curiam. See Seckington, 241 So.
3d at 853.
The record reflects that Petitioner told the trial court that he was satisfied with
Hausler's representation and there were no other witnesses or evidence that he wished
to present. (Doc. 21-2 at 198-99). When Petitioner made these statements, he was aware
that counsel had not called any expert witnesses on his behalf. Therefore, Petitioner
waived his claim that counsel acted deficiently in this regard.
Additionally, "evidence about the testimony of a putative witness must generally
be presented in the form of actual testimony by the witness or an affidavit. A defendant
13

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 14 of 25 PagelD 2831

cannot simply state that the testimony would have been favorable; self-serving
speculation will not sustain an ineffective assistance claim." United States v. Ashimi, 932
F.2d 643, 650 (7th Cir. 1991) (footnotes omitted); Wright v. Sec'y, Dep't ofCorr., No. 6:08cv-618-Orl-35DAB, 2009 WL 5176558, at *3 (M.D. Fla. Dec. 23, 2009). Petitioner has not
made the requisite factual showing with regard to these witnesses, and his self-serving
speculation will not sustain a claim of ineffective assistance of counsel.
The state court's denial of this claim was not contrary to, or an unreasonable
application of, Strickland. Accordingly, Claim Four is denied pursuant to § 2254(d).
E.

Claims Five and Six

Petitioner alleges that trial counsel was ineffective for failing to challenge the
quantity of methamphetamine attributed to him. (Doc. 1 at 21-22). In Claim Six, Petitioner
alleges trial counsel should have argued for the application of the rule of lenity with
regard to how the State measured the quantity or weight of the methamphetamine. (Id.
at 26). Petitioner, raised these claims in his Rule 3.850 proceedings, and the trial court
summarily denied relief, stating that pursuant to Florida law, the quantity of
methamphetamine was properly calculated. (Doc. 21-7 at 4). The Fifth DCA affirmed per
curiam. See Seckington, 241 So. 3d at 853.
Section 893.135(l)(f), Florida Statutes, provides that a person who knowingly sells,
purchases, manufactures, delivers, brings into the state, or who is knowingly in actual or
constructive possession of methamphetamine, "or any mixture containing amphetamine
or methamphetamine ... commits a felony of the first degree...." The statute also states
14

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 15 of 25 PagelD 2832

that "[f]or the purpose of clarifying legislature intent regarding the weighing of a mixture
containing a controlled substance [,] ... the weight of the controlled substance is the total
weight of the mixture, including the controlled substance and any other substance in the
mixture." § 893.135(6), Fla. Stat. Furthermore, "if there is more than one mixture
containing the same controlled substance, the weight of the controlled substance is
calculated by aggregating the total weight of each mixture." (Id.).
Maria Andreu ("Andreu"), a senior forensic chemist working for the DEA
Southeast Laboratory, testified that the two containers of liquids received from law
enforcement tested positive for methamphetamine and weighed 131.4 grams and 132
grams, respectively, for a total of 263.4 grams. (Doc. 21-2 at 189-91). On crossexamination, defense counsel Hausler questioned Andreu regarding whether it was
possible to calculate how much methamphetamine was contained in the liquid. (Id. at
191). Andreu testified that she only tests for controlled substances and does not test for
common household substances. (Id.).
Pursuant to the unambiguous language of § 893.135(6), Florida Statutes, counsel
had no basis to challenge the quantity of the methamphetamine attributed to Petitioner
or the methodology by which Andreu tested and weighed the liquids. See Wilder v. State,
194 So. 3d 1050,1053 (Fla. 5th DCA 2016) (stating that there is "no ambiguity" in section
893.135, Florida Statutes and concluding the statute "clearly contemplates the
punishment for trafficking of 'any' mixture of methamphetamine and does not set a
minimum threshold amount of methamphetamine that must be part of the mixture...,").
15

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 16 of 25 PagelD 2833

Nor did counsel have a reason to ask for the rule of lenity to be applied to this matter. See
Salinas v. United States, 522 U.S. 52, 66 (1997) (stating the rule of lenity does not apply
"when a statute is unambiguous or when invoked to engraft an illogical requirement to
DZS.QZSZ
its text.") (citing United States v. Shabani, 513 U.S. 10,17 (1994)).
Florida law allows for a defendant to be convicted of trafficking in
methamphetamine so long as there is some amount, no matter how small, of
methamphetamine in a mixture. Consequently, the total weight of the liquid found in
Petitioner's bathroom, 263.4 grams, was properly attributed to him. Counsel did not act
deficiently with regard to these claims, nor did counsel's actions result in prejudice. The
state court's denial of this claim was not contrary to, or an unreasonable application of,
Strickland. Accordingly, Claim Six is denied pursuant to § 2254(d).
F.

Claim Seven

Petitioner contends that his twenty-five-year sentence amounts to cruel and
unusual punishment. (Doc. 1 at 28). Petitioner arguably raised this claim in his Rule
3.800(a) motion, and the trial court denied relief. (Doc. 21-3 at 77-78 and 85-86). The Fifth
DCA affirmed per curiam. (Id. at 111).
Petitioner was convicted of a first-degree felony for drug trafficking, for which
there is a maximum sentence of thirty years in prison and a mandatory minimum term
of fifteen years in prison. See §§ 893.135(l)(f)(l)(c) and 775.082(b)(1), Fla. Stat. Moreover,
Florida and federal courts have rejected similar Eighth Amendment challenges. See Paey
v. State, 943 So. 2d 919, 925-26 (Fla. 2d DCA 2006) (holding that a twenty-five-year
16

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 17 of 25 PagelD 2834

mandatory minimum term for trafficking in a controlled substance does not violate the
Eighth Amendment); United States v. Johnson, 451 F.3d 1239,1243 (11th Cir. 2006) (stating
generally, "a sentence within the limits imposed by statute is neither excessive nor cruel
and unusual under the Eighth Amendment.") (citation omitted). Petitioner was
sentenced below the maximum term permitted by statute; therefore, he cannot show that
his sentence amounts to cruel or unusual punishment or that it was imposed in violation
of the Eighth Amendment. Accordingly, Claim Seven is denied pursuant to § 2254(d).
G.

Claim Eight

Petitioner alleges that counsel was ineffective for failing to advise him that he
could preserve for appeal the issue of whether the State properly calculated the weight
of methamphetamine attributed to him after the entry of a plea. (Doc. 1 at 32). In support
of this claim, Petitioner contends that he was offered a negotiated plea for the instant case
and lower court case number 13-2708-CFA, whereby he would receive seven years in
prison for the trafficking charge and six months in jail for the charges in his other case.
(Id.). Petitioner contends that had he known he could preserve the issue regarding the
weight of methamphetamine for appellate review, he would have entered the plea. (Id.).
Petitioner raised this claim in his Rule 3.850 proceedings, and the trial court summarily
denied relief, stating that the issue of the weight of the methamphetamine could not have
been raised on appeal, and therefore, counsel was not deficient for failing to advise
Petitioner in this manner. (Doc. 21-7 at 9-10). The Fifth DCA affirmed per curiam. See
Seckington, 241 So. 3d at 853.
17

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 18 of 25 PagelD 2835

Pursuant to Florida law, a defendant may appeal from a guilty or nolo contendere
plea if he "expressly reserve[s] the right to appeal a prior dispositive order of the lower
tribunal.. .Fla. R. App. P. 9.140(b)(2)(A)(i). Alternatively, a defendant may appeal (1)
the lower tribunal's lack of subject matter jurisdiction; (2) a violation of the plea
agreement, if preserved by a motion to withdraw plea; (3) an involuntary plea, if
preserved by a motion to withdraw plea; (4) a sentencing error, if preserved, or (5) as
otherwise provided by law. Fla. R. App. P. 9.140(b)(2)(A)(ii).
In order for Petitioner to preserve the issue of the weight of methamphetamine for
appellate review, he had to file a dispositive motion on the subject. No such dispositive
motion was filed in the state court. Therefore, counsel did not incorrectly advise
Petitioner on the matter because the issue was not expressly reserved for appeal.
Petitioner has not demonstrated that counsel acted deficiently, and the state court's denial
of this claim was not contrary to or an unreasonable application of Strickland.
Accordingly, Claim Eight is denied pursuant to § 2254(d).
H.

Claim Nine

Petitioner asserts that trial counsel was ineffective for failing to argue that he did
not violate the "legislative intent" of the trafficking statute, which is to punish those who
deal in large quantities of dangerous illegal drugs. (Doc. 1 at 34). Respondents assert that
this claim is unexhausted.
Federal courts are precluded, absent exceptional circumstances, from granting
habeas relief unless the petitioner has exhausted all means of available relief under state
18

* *^

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 19 of 25 PagelD 2836

law. 28 U.S.C. § 2254(b); O'Sullivan v. Boerckel, 526 U.S. 838, 842-44 (1999). In order to
satisfy the exhaustion requirement a "petitioner must 'fairly present[ ]' every issue raised
in his federal petition to the state's highest court, either on direct appeal or on collateral
review." Isaac v. Augusta SMP Warden, 470 F. App'x 816, 818 (11th Cir. 2012) (quoting
Castille v. Peoples, 489 U.S. 346, 351 (1989)).
A review of the record reveals that Petitioner did not raise this claim in his Rule
3.850 proceedings. (Doc. 21-7 at 5-51). Although Petitioner alleges that he raised the issue
of "legislative intent" below, it was in the context arguing that the methodology used to
determine whether the weight of methamphetamine was improper. (Id. at 12-23).
Therefore, because Petitioner did not raise the same claim in the state, this claim is
unexhausted. See Ogle v. Johnson, 488 F.3d 1364 (11th Cir. 2007). Moreover, the Court is
precluded from considering this claim because it would be procedurally defaulted upon
return to state court. See Snowden v. Singletary, 135 F.3d 732, 735 (11th Cir 1998).
Petitioner has neither alleged nor shown either cause or prejudice that would
excuse the procedural default. Wright, 169 F.3d at 703. Likewise, he has not demonstrated
the applicability of the actual innocence exception. Murray, 477 U.S. at 496. A review of
the record reveals that Petitioner is unable to satisfy the exceptions to the procedural
default bar. Accordingly, Claim Nine is denied.4

4 Alternatively, the Court concludes that Petitioner is not entitled to relief on this
claim. As discussed supra, it is clear that the Florida Legislature intended to punish those
who knowingly traffic in controlled substances or mixtures containing those substances.
The Legislature also clearly stated that the weight of the controlled substance to be used
19

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 21 of 25 PagelD 2838

numerous times. (Id. at 7-8). In submitting these documents, State was attempting to
demonstrate that Petitioner's manufacture of methamphetamine was not a one-time
occurrence. (Id.).
In Williams v. State, 193 So. 3d 1017,1018 (Fla. 1st DCA 2016), the First DCA stated
that while it was not improper to consider prior arrests not resulting in convictions at
sentencing, it is improper for a court to base a defendant's sentence in whole or in part
on uncharged or unsubstantiated allegations of wrongdoing. The record reflects that the
State was not asking the trial court to sentence Petitioner based on prior arrests or
uncharged acts. Instead, the State argued that Petitioner had been manufacturing
methamphetamine for some time. Petitioner's sentence was below the maximum allowed
by law, and there is no indication that the trial court based his sentence on uncharged or
unsubstantiated wrongdoings. Therefore, appellate counsel did not act deficiently, nor
did appellate counsel's failure to raise this claim on appeal result in prejudice. The state
court's denial of this claim was not contrary to or an unreasonable application of clearly
established federal law. Accordingly, this portion of Claim Ten is denied pursuant to §
2254(d).

J.

Claim Eleven

Petitioner contends that the trial court and Fifth DCA erred by failing to grant his
motions to disqualify and petitions for writ of prohibition. (Doc. 1 at 38). Petitioner filed
numerous petitions and motions to disqualify the trial court judge in the state trial and
appellate court. (Doc. Nos. 21-8 at 79-16; 21-9 at 2-34, 77-84). These motions and petitions
21

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 22 of 25 PagelD 2839

were all denied. (Id.).
Petitioner sought disqualification of Judge Nelson, the judge who presided over
his trial, because he did not believe that he would receive fair rulings on his post­
conviction motions. (Doc. 21-8 at 80-81). Petitioner also cited the Judge's denial of post­
conviction motions as a basis for her disqualification. (Id.).
"The test a trial court must use in determining 'whether a motion to disqualify is
legally sufficient is whether the facts alleged would place a reasonably prudent person in
fear of not receiving a fair and impartial trial.'" Chamberlain v. State, 881 So. 2d 1087,1097
(Fla. 2004) (quoting Barnhill v. State, 834 So. 2d 836,843 (Fla. 2002)). A motion to disqualify
"must be well-founded and contain facts germane to the judge's undue bias, prejudice,
or sympathy." Id. (quotation omitted). However, a trial judge's adverse rulings against
one party do not constitute a sufficient basis for disqualification. Gilliam v. State, 582 So.
2d 610, 611 (Fla. 1991).
The state courts did not err by denying Petitioner's motion to disqualify or his
petitions for writ of prohibition. The record does not demonstrate that the trial judge was
biased against Petitioner, and the facts alleged by Petitioner were not such that a
reasonable person would be convinced that bias existed. Instead, it appears that
Petitioner merely takes issue with the adverse rulings against him, which alone do
support a basis for disqualification. Consequently, the state court's rejection of this claim
was not contrary to or an unreasonable application of clearly established federal law.
Accordingly, the Court will deny Claim Eleven pursuant to § 2254(d).
22

r .
.4.

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 23 of 25 PagelD 2840

K.

Claim Twelve

Petitioner alleges that the Fifth DCA erred by barring him from filing any pro se
documents pursuant to State v. Spencer, 751 So. 2d 47 (Fla. 1999). (Doc. 1 at 40). At most,
Petitioner alleges an error or defect in the state post-conviction process. See Quince v.
Crosby, 360 F.3d 1259,1261-62 (11th Cir. 2004) (concluding that " [w]hile habeas relief is
available to address defects in a criminal defendant's conviction and sentence, an alleged
defect in a collateral proceeding does not state a basis for habeas relief"); Carroll v. Sec'y
Dep't ofCorr., 574 F.3d 1354 (11th Cir. 2009). Petitioner's claim is unrelated to the cause of
his detention, and thus habeas relief is not available to address this claim. Id.
Furthermore, there is no constitutional right to file frivolous court cases or abuse
the judicial process. Williams v. Sec'y, Dep't ofCorr., No. 507-CV-97-OC-10GRJ, 2009 WL
1513412, at *3 (M.D. Fla. May 27, 2009). The state court's findings that Petitioner abused
the state court judicial process are determinations that are entitled to deference in this
Court; it is not the province of this Court to "reexamine state-court determinations on
state-law questions." Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). Accordingly, Claim
Twelve is denied.
Any of Petitioner's allegations not specifically addressed herein have been found
to be without merit.6

6 To the extent that Petitioner has raised new claims that counsel was ineffective
for failing to file a motion to suppress and for failing to file a motion pursuant to Rule
3.190(c) of the Florida Rules of Criminal Procedure (Doc. 22 at 7 and 16), the Court notes
that they are untimely and do no relate back to the Petition. Fed. R. Civ. P. 15(c); Mayle v.
23

r

■

•* /

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 24 of 25 PagelD 2841

IV.

Certificate of Appealability

This Court should grant an application for certificate of appealability only if the
r Petitioner "makes a substantial showing of the denial of a constitutional right." 28 U.S.C.
x\"': §2253(c)(2). To make such a showing "the petitioner must demonstrate that reasonable
^

^

jurists would find the district court's assessment of the constitutional claims debatable or
12,D S.C+- \S^S(^Doo)
wrong." Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also Lamarca v. Sec'y Dep't ofCorr.,
568 F.3d 929,934 (11th Cir. 2009). When a district court dismisses a federal habeas petition
on procedural grounds without reaching the underlying constitutional claim, a certificate
of appealability should issue only when a Petitioner shows "that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling." Id.-, Lamarca, 568 F.3d at 934. However, a prisoner need
not show that the appeal will succeed. Miller-El v. Cockrell, 537 U.S. 322,337 (2003).
The Court concludes that Petitioner has not made the requisite showing in these
circumstances. Petitioner is not entitled to a certificate of appealability.
Accordingly, it is ORDERED AND ADJUDGED as follows:

Felix, 545 U.S. 644 (2005). Therefore, the Court will not address those claims.
Alternatively, these claims are unexhausted because they were not raised in the
Rule 3.850 proceedings. Petitioner fails to demonstrate any cause or prejudice for the
procedural default. Wright, 169 F.3d at 703. Furthermore, he has not shown that he is
actually innocent of the charges. Murray, 477 U.S. at 478. Consequently, these claims are
procedurally barred.
24

r>
4,

Case 6:19-cv-00713-GAP-EJK Document 39 Filed 09/10/20 Page 25 of 25 PagelD 2842

1.

The Petition for Writ of Habeas Corpus filed by Christopher Seckington

(Doc. 1) is DENIED, and this case is DISMISSED WITH PREJUDICE.
2.

Petitioner is DENIED a certificate of appealability.

3.

The Clerk of the Court is directed to enter judgment and close the case.

DONE AND ORDERED in Orlando, Florida, on September 10, 2020.

UNITED STATES DISTRICT JUDGE

Copies to:
OrlP-3 9/8
Counsel of Record
Unrepresented Party

25

USCA11 Case: 20-13899

Date Filed: 05/25/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13899-E
CHRISTOPHER SECKINGTON,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeals from the United States District Court
for the Middle District of Florida
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Christopher Seckington has filed a motion for reconsideration of this Court’s April 2,2021,
order denying a certificate of appealability and leave to proceed in forma pauperis, in order to
appeal from the denial of his underlying habeas petition, pursuant to 28 U.S.C. § 2254. Upon
review, Seckington’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

APPBopj: c

f

'}

A

%

IN THE CIRCUIT COURT FOR THE EIGHTEENTH JUDICIAL CIRCUIT
IN AND FOR SEMINOLE COUNTY, FLORIDA
STATE OF FLORIDA, >
Plaintiff,

CASE NO.

vs.

13-2709CFA

5 GO
S
..

1<-

Q

—’

o
O

X-

Fn

CHRISTOPHER MICHAEL SECKINGTON,
Defendant.

03 ps;;;

23

P5>
o

oseo

ORDER DENYING DEFENDANT’S SECOND AMENDED MOTION FOR
POSTCONVICTION RELIEF

3S
CO

~-=;‘

o

o

cr.

30

...4

THIS CAUSE comes before the Court on the Defendant’s pro se “Second Amended
* %*

Motion for Postconviction Relief,” filed pursuant to Fla. R. Crim. P. 3.850 on May 19, 2017.
Having reviewed the motion, the case file and the applicable law, and upon due consideration,
the Court finds as follows:
The record reflects that the Defendant was convicted after a jury trial of trafficking in
methamphetamine (Count 1) and possession of not more than 20 grams of cannabis (Count 2).
•'0n Count^ jwy made the further finding that the quantity of the mixture containing
methamphetamine was 200 grams or more. The Defendant was sentenced on Count 1 to twentyfive years imprisonment with a fifteen minimum mandatory pursuant to Fla. Stat. §
893.135(1 )(f) 1 .c. and time served on Count 2. The Defendant appealed and the Fifth District
Court of Appeal per curiam affirmed. Seckineton v. State. 5D14-4245, 2015 WL 6438153 (Fla.
5th DCA Oct. 20,2015).
In his motion, the Defendant raises several claims of ineffective assistance of counsel. In
order to prevail on a claim of ineffective assistance of counsel, the Defendant has the burden of
demonstrating that (1) counsel’s performance was deficient, and (2) there is a substantial
likelihood that the outcome of fee proceedings would have been differppt Strickland v.

AfPEWDr Q
i

Washington, 466 U.S. 668 (1984); Williamson v. Dugger. 651 So. 2d 84 (Fla. 1994); Knight v.
State, 394 So. 2d 997 (Fla. 1981). The Court notes that in reviewing claims of ineffective
assistance of counsel, it must apply a strong presumption that counsel’s conduct falls within the
range of reasonable professional assistance and must avoid the distorting effects of hindsight.
The standard is reasonably effective counsel, not perfect or error-free counsel. Coleman v. State.
718 So. 2d 827 (Fla. 4th DCA 1998); Schofield v. State. 681 So. 2d 736 (Fla. 2d DCA 1996).
In Ground 1, the Defendant asserts that trial counsel was ineffective for failing to revisit
his judgment of acquittal (JOA) argument regarding the weight of the mixture at the Defendant’s
sentencing hearing. At the close of the evidence, trial counsel argued for a JOA based, in part,
upon the fact that any unusable

should not be included in the weight of the

controlled substance. (T. 160-67). Relevant portions of the trial transcript are attached hereto as
Exhibit A. The trial court denied the motion but indicated that defense counsel could do
additional research and revisit the issue at sentencing. The Defendant asserts that trial counsel
was ineffective for failing to do additional research and revisit the issue at the Defendant’s
sentencing hearing. In support of this claim, the Defendant cites to numerous federal cases
premises upon the United States Supreme Court case Chapman v. United States. Ill S. Ct. 1919
----- S)
druCj
(1991), which held thaTCongress4dopted a market-oriented approach for determining the weight
r-

V2

of controlled substances for ()urpeses4f-the-s^fttencing guidelines. 111 S. Ct. at 1925. f' f\f~ l
Essentially, the Defendant is asserting that the trial court erred in denying his motion for JOA.
Trial counsel moved for a JOA based upon the legal argument the Defendant is asserting in his

FKi

claim; therefore, this is an issue that could have been raised on appeal. TheDefendant cannot
counter the procedural bar” to raising issues that could or should have been raised on direct

2

•Vo Itxsj V
appeal by “couch[ing] his claim ... in terms of ineffective assistance of counsel in failing to
preserve or raise those claims.” Cherry v. State. 659 So. 2d 1069,1072 (Fla. 1995).
Furthermore, contrary to the Defendant’s assertion, Florida courts are not bound by
United State Supreirie Court cases when interpreting the meaning of state statutes. Florida Ins.
Guar. Ass’n, Inc, v. Olympus Ass’n, Inc.. 34 So. 3d 791, 795 (Fla. 4th DCA 2010) (“state courts
/

that are construing and interpreting state law are not bound by the decisions of federal courts.”);

ire-

Int'l Ass'n of Bridge, Structural & Ornamental Ironworkers. AFL-CIQ v. Blount Intern.. Ltd..
benry\cL only fv apply "fat jJHMnWnS 0^-flnt, Const* of US
f)cis of Lcmqre££ ccnt>i
’
519 So, 2d 1009, 1012 (Fla. 2d DCA 1987) (“State courts .T. are not bound by any federal court
regarding the interpretation of state law and only by the United State Supreme Court in regard to
interpretations of the United States Constitution and Acts of Congress!”). As recently noted by
the First District Court of Appeal, the federal statutes interpreted in Chapman differ significantly
from the Florida statutes regarding calculating the weight of controlled substances. Wilder v.
State, 194 So. 3d 1050,1054 n.5 (Fla. 1st DCA 2016). In Wilder, the Court held that “based on
the plain language of sections 893.135(l)(f) 1. and 893.135(6), the jury was properly instructed
on and allowed to consider the liquid by-product in determining” whether the defendant
possessed a trafficking amount of methamphetamine. 194 So. 3d at 1054. In so doing, the Court
rejected the use of the market-oriented approach adopted in Chapman. Wilder. 194 So. 3d at
1054 n.5. Similarly, while not specifically addressing liquid by-product in conjunction with the
amount of methamphetamine, the Fifth District Court of Appeals recognized that when the
Legislature amended sections 893.03(3) and 893.135 in 2001, “it added a definition to provide
that the weight of a controlled substance is the total weight of the mixture, including the
controlled substance and any other substance in the mixture.” Nottebaum v. State. 898 SoTld '
1073,1074 (Fla. 5th DCA 2005). Therefore, the Defendant has failed to demonstrate that

—ot
uesHMJ o-fi 'ft. Laiv ,

.... _..............

............... .

'

J

fh e !f th */>?■£-.•cL#t&f#h j

fiftfli'e S ~h usable pdls [Hydrv cpd&n e) wet. Hax/€% v. 5 faJ-e. which <
j-tef ■ ibte^r.
3

’

/

£ . no t incltfcle<k

O r\

\ r\

presenting additional federal case law would have changed the results. Consequently, the
Defendant has failed to demonstrate an entitlement to relief as to Ground 1.
In Ground 2, the Defendant asserts that trial counsel was ineffective for abandoning a
defense based upon the Defendant’s lack of knowledge of the illicit nature of the substance. The
Defendant asserts that trial counsel could have established this defense by asking the
investigators and lab technicians if they could be certain the mixture contained
methamphetamine by just looking at it without testing the substance. The Defendant asserts that
they would have answered that one would not be able to tell the substance contained
methamphetamine without testing it, thereby entitling him to an instruction on the defense. The
Defendant also asserts that he did not consent to counsel’s failure to present evident in support of
this defense.
At the close of the State’s case, the trial court inquired of the Defendant regarding
whether he intended to testify in his own defense, to which he stated that he would not. The trial
court then inquired if there were any witnesses or evidence that Defendant wanted trial counsel
to present that trial counsel had failed to present. The Defendant indicated that there was not, but
that there was additional ease law that he wanted presented regarding his motion for a JOA,

f M3

-

which was subsequently addressed. (T. 163-65). The Defendant cannot now complain about

fW4

this decision, which he made at the time of trial. Therefore, trial counsel was not ineffective in
this regard. See Gamble v. State. 877 So. 2d 706, 714 (Fla. 2004) (“[I]f the defendant consents
to counsel's strategy, there is no merit to a claim of ineffective assistance of counsel.”). As such,
the Defendant has failed to demonstrate an entitlement to relief on Ground 2.
f.

In Ground 3, the Defendant asserts that trial counsel was ineffective for failing to move
for a JOA because there was no jury finding that the Defendant possessed the mixture of

4

methamphetamines in conjunction with other chemicals and equipment for the manufacture of
methamphetamines. The Defendant asserts that the information charged him with possession in
conjunction with other chemicals and equipment but that the jury was neither instructed on this
element nor made any specific finding in that regard. This claim appears to be based upon a
mistaken understanding of the trafficking statute and the Defendant’s charge in this case.
^
^Pursuant to Fla. Stat. § 893.135(l)(f)l, trafficking in methamphetamine can be committed by
^ \(^^^Possessing 14 grams or more of: ^ methamphetamin^j^ any mixture containing
^

^ methamphetamin^jorY^phenylacetone, phenylacetic acid, pseudophedri

ft ip*
vH

ne or ephedrine in

conjunction with other chemicals and equipment utilized in the manufacture of amphetamine or
methamphetamine. It is only possession of phenylacetone, phenylacetic acid, pseudophedrine or
ephedrine that must be possessed in conjunction with other chemicals and equipment to
constitute trafficking, not a mixture containing methamphetamine. “The general rule is where an
offense may be committed in various ways, the evidence must establish it to have been
committed in the manner charged in the indictment.” Long v. State. 92 So. 2d 259, 260 (Fla.
1957). When a statute criminalizes acts in the disjunctive, the information can allege those acts
in the disjunctive and proof of any one of the acts is sufficient to sustain a conviction. See Id.
The State charged the Defendant with three different ways to commit the offense of
trafficking in methamphetamines. A copy of the amended information is attached to the
Defendant’s motion as Exhibit A. As stated in the Defendant’s statement of the case and facts,
there was no evidence presented that the Defendant possessed phenylacetone, phenylacetic acid,
pseudophedrine or ephedrine; therefore, there was no reason to instruct the jury on that method
i

of committing the offense. See Defense Motion pg. 6. Furthermore, as the information charged
the Defendant with multiple ways of committing trafficking, proof of possession of any mixture

5

\

' n
of methamphetamine was sufficient to sustain a conviction without the jury being instructed on
possession in conjunction with other chemicals and equipment. The Defendant acknowledged in
his statement of the case and facts that there was evidence presented that the jugs contained
methamphetamine and their total weight was over 14 grams. See Defense Motion pg. 5-6.
'p

rl^ Therefore, any motion for a JOA or objection to the jury instructions would have been futile. pA/c^
Trial counsel cannot be deemed deficient for failing to raise a nonmeritorious legal theory.” See
Bradley v. State, 33 So. 3d 664, 682 (Fla. 2010), as revised on denial of reh'g (Apr. 22, 2010)
(quoting Thompson v. State, 759 So.2d 650, 665 (Fla.2000)). Consequently, the Defendant has
failed to demonstrate an entitlement to relief as to Ground 3.
In Ground 4, the Defendant asserts that trial counsel was ineffective for failing to retain
and call at trial a fingerprint expert and a forensic chemist.^As discussed above, at the close of
the State s case, the trial court inquired of the Defendant if there were any witnesses or evidence

!

that Defendant wanted trial counsel to present that trial counsel had failed to present. The

V

Defendant indicated that there was not, but that there was additional case law that he wanted
presented regarding his motion for a JOA, which was subsequently addressed. (T. 163-65). The
Defendant cannot now complain about this decision, which he made at the time of

A

trial. Therefore, trial counsel was not ineffective in this regard. See Gamble. 877 So. 2d at 714
(“[I]f the defendant consents to counsel's strategy, there is no merit to a claim of ineffective
assistance of counsel.”). As such, the Defendant has failed to demonstrate an entitlement to
relief on Ground 4.
In Ground 5, the Defendant asserts that trial counsel was ineffective for failing to argue
that the trial court erred in denying his motion for JOA regarding the Defendant being the sole
occupant of the premises where the drugs were located. While initially phrasing this as a claim

6

fli
r

^

jj ^

°f ineffective assistance of counsel, the Defendant acknowledges in the claim that he is asserting
^at

tr^a^court erred in denying his JOA. Issues of ordinary trial error, reviewable on appeal,

PbJ t

are not cognizable under rule 3.850. ‘Bruno v. State. 807 So. 2d 55, 63 (Fla. 2001); Straight v.
State, 488 So. 2d 530 (Fla. 1986); Childers v. State. 782 So. 2d 946 (Fla. 4th DCA 2001); State
y. Johnson? 651 So. 2d 145 (Fla. 2d DCA 1995). The Defendant cannot “counter [this]
procedural bar” by “couch[ing] his claim ... in terms of ineffective assistance of counsel in
failing to preserve or raise those claims.” Cherry, 659 So. 2d at 1072. Therefore, the Defendant
has failed to demonstrate an entitlement to relief as to Ground 5.
In Ground 6, the Defendant asserts that trial counsel was ineffective for failing to object
to the trial court instructing the jury on the lesser included offense of manufacturing
methamphetamine because it is not a lesser included offense of trafficking in methamphetamine.
Given that the Defendant was convicted as charged of trafficking, the Defendant cannot
demonstrate that he was prejudiced by the inclusion of the instruction on the lesser included
offense of manufacturing. Therefore, the Defendant has failed to demonstrate an entitlement to
X-C tri'tlc iVu
ff
-fbi's $ rptMcl CO>%^S
relief as to Ground 6. j „
^
In Ground 7, the Defendant asserts that trial counsel was ineffective for failing to
withdraw from representing the Defendant based upon a conflict of interest. This claim was
previously dismissed twice for failure to allege any specific facts^which demonstrate an

~7

entitlement to relief, and the Defendant was given leave to file an amended motion pursuant to
Spera v. State, 971 So. 2d 754, 761-62 (Fla. 2007). A copy of the original motion without
attachments is attached hereto as Exhibit B. A copy of the Court ’s February 28, 2017 order is
attached hereto as Exhibit C. A copy of the amended motion Without attachments is attached
hereto as Exhibit D. A copy of this Court’s April 20,2017 order is attached he&to as Exhibit E.

7

x he Defendant was unable to “cure the deficiency.” and this Court is not required to give him
another opportunity to amend. Nelson v. State. 977 So. 2d 710, 711 (Fla. 1st DCA 2008).
Therefore, the Defendant has failed to demonstrate an entitlement to relief as to Ground 7.
In Ground 8, the Defendant asserts that trial counsel was ineffective for failing to advise
the Defendant that he could appeal the issue regarding the calculation of the weight of the
mixture containing methamphetamine if the Defendant had accepted the State’s plea offer. The
Defendant’s claim is premised on the assertion that he would have accepted the plea offer if he
had known that he could appeal the issue of how the weight of the mixture should be calculated;
however, Fla. R. App. P. 9.140(b)(2)(A)(i) provides that a defendant cannot appeal from a guilty
or no contest plea except when the defendant “expressly reserve[s] the right to appeal a prior
dispositive order of the lower tribunal, identifying with particularity the point of law being
reserved.” (emphasis added). At the time of the plea offer, August 12, 2014, there had been no
ruling by the trial court on the issue of the proper calculation of the weight of the mixture
containing methamphetamine. [in fact, there had been no motion filed by the defense raising said
issuej The only potentially dispositive motion filed was a motion to dismiss based upon
n
bt&erSrt. couns«4. sWULKovewfiMt “tprileo.
entrapment filed on May 28, 2014.^ copy of the clerk’s docket screen^tec®%Sreto aff'€
Exhibit F. A copy of the motion to dismiss is attached hereto as Exhibit G. The record does
reflect that the issue was raised in a pro se motion to dismiss filed by the Defendant after he was
permitted to represent himself. A copy of the motion is attached hereto as Exhibit H. However,
the Defendant withdrew the motion without the trial court ever ruling on it at the trial scheduling
conference held on October 2, 2014. A copy of the court minutes is attached hereto as Exhibit I.
Therefore, there was no prior dispositive order for the Defendant to appeal if he had entered a
plea, and any advice by trial counsel to the Defendant that he could appeal the issue if he entered

8

.

the plea would have been incorrect. As a result, the Defendant has failed to demonstrate that
trial counsel was ineffective. Consequently, the Defendant has failed to demonstrate an
entitlement to relief as to Ground 8.
In Ground 9, the Defendant claims that the cumulative errors by his counsel constitute
ineffective assistance of counsel. As the Court has found the individual claims of error to be
without merit, the Defendant has failed to demonstrate that he is entitled to relief based on the

tr, ex.

hacL/»esi't ffifa qteodL °t A*6£

cumulative errors of his counseirSee Ferrell v. State. 29 So. 3d 959, 976 (Fla. 2010), reh'g
denied (Mar. 1,2010). Therefore, the Defendant has failed to demonstrate an entitlement to
relief as to Ground 9.
Accordingly, it is
ORDERED AND ADJUDGED that Defendant’s motion is DENIED.
Defendant may file a notice of appeal within thirty days of the date this order is rendered.
DONE AND ORDERED in chambers at Sanford, Seminole County, Florida, this /
day of July, 2017.

DEBRA S. NELSON, Circuit Judge

I hereby certify that copies of the foregoing have been furnished by mail this / 6 m
vJiukl
2017 to:
Christopher Seckington, # 081034
Hamilton Correctional Institution - Annex
11419 SE County Rd. 249
Jasper, FL 32052

Office of the State Attorney
101 EslingerWay
Sanford, FL 32773

GRANT MALOY, Clerk of Courts
By:

)

day of

y*______

>E?UTY~CLERK

9

‘

^r..
1

II-I63S>0
7~ 17'■

EXHIBIT A

77) > JbjU-e- Aseason

ftZ: Case# /3^7c^-CFA

✓

'XL -Ka^.fiu ConfltCr. 0

K>\ y

A

(kkr-i'v ^

Of

f i htcrt$i~ u" ft

h^ey />?f, //C
jr. k^r-eby \0

0~

n H ca/^ny j-or'fawtth *

Ckr/s ^eclon

K

J'<m-(#./3'/*38'0

S-emhele Coo^y Ja-'
D>ef e>vcLc».n t

AWfooix E
RfiVxrd Oh AjOpW

91

.

'

Chris hY,clO'vy?ron
ji-'i Wi^'/dsro

O

°brP

8-20 ~/y

EXHIBIT B
td;

({£,-.

U-W^- C/'A

Jtcte-f- fVdso/7.______________ _——

h'W r\a-twe i 5
<jei >c'
_____
T L.^- o- >/^f)rcf o9- T" i-^**>T v-±L^
tyiy A~tf~orh-e-y , /7>r_/j.cuU s l^-C*—------ ------- 7>?r- Uau&lfr ~ hx£U2dldjm3^idh-&-J3ut4£
4Kflh r irilLhtr*
•iTihUnJ' mJJ^__
+hls. tous>jl nnrt n&eA. fo fe-edane
_
r ft oh TW<v‘1._________ ^
ha.^<- oV r kfy-ftfc o r-6-|Ve<lf +t> ___
JVrJsoi’v H ■eaf'i na For'tlri VOitU___
CfoQ*^AJLOjh»g0(6z2.

/i kw S-eckin da ton
I x-16390

Bysk iSlvd'
2M
,&£L
Terc*. .

-J------- --

ftfeOSrtioh Afsft/fr/ pftgt-

32.773

■

I

f

Filing # 17024186 Electronically Filed 08/12/2014 10:33:48 PM

EXHIBIT C

. *

IN THE CIRCUIT COURT OF THE EIGHTEENTH JUDICIAL CIRCUIT
IN AND FOR SEMINOLE COUNTY, FLORIDA
CASE NO. 59-2013-CF-002709-A

STATE OF FLORIDA
Plaintiff,
v.
CHRISTOPHER SECKINGTON,
Defendant.
/

MOTION TO WITHDRAW AS COUNSEL OF RECORD
COMES NOW, Justin G. Hausler, Esq., Counsel of Record for the Defendant,
CHRISTOPHER SECKINGTON, and files this Motion to Withdraw as Counsel of
Record and as grounds therefore states:
1
That the Undersigned Counsel was appointed to represent the Defendant on the
above-referenced case numbers on June 18 , 2014 by the Judge Jessica Recksiedler. The
Defendant was represented by the Public Defender, Office of Regional Conflict and
private counsel. The Undersigned Attorney was appointed to the case after private
counsel withdrew and without an order of conflict being entered on behalf of the Office
of Regional Conflict.
2.
That against the advice of the Undersigned Attorney, the Defendant,
CHRISTOPHER SECKING, has decided to address the court personally and has written
two letters to express his dissatisfaction with the Undersigned Attorney representing him.
3. That due to continued issues that remain protected by confidentiality the
Undersigned Attorney must request to withdraw from the Defendant’s case due to ethical _
conflict
4.
That the Defendant has requested the ability to represent himself in the last letter he
wrote to this Court.
3
That pursuant to the Defendant’s voiced dissatisfaction and additional exchanges
between the. Defendant and the Undersigned Attorney, the Attomey/Client Relationship .
is irrevocably broken.
6
That the Undersigned Attorney would move to withdraw from representation of the
Defendant and believes that any further representation will cause additional delay and
potential 3.850 issues on the Defendant’s case.
WHEREFORE, the Undersigned Counsel respectfully requests that this
Honorable Court enter an Order granting leave to Withdraw as counsel for the Defendant
and do all else in the interest of justice.

RfeCOrd PIN Appwl

.JJ

*** E-FILED: MARY ANNE MORSE, CLERK OF CIRCUIT COURT SEMINOLE COUNTY, FL ****

c

i

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing has been
furnished by EService Delivery to the Office of the State Attorney, Seminole County FL
and CHRISTOPHER SECKINGTON by US Mail at the John E. Polk Correctional
Facility, FL 32124 on this 12th day of August, 2014.
/S/ Tustin “
HausCer
JUSTIN G. HAUSLER, ESQUIRE
The Law Offices of
Justin G. Hausler, P.A.
274 Wilshire Blvd;, Ste. 245
Casselberry, FL 32707
Tel. (407) 617-1064
jghausler@gmail.com
Florida Bar #0031071
Attorney for the Defendant

98 .

c

EXHIBIT D
IN THE CIRCUIT COURT OF THE 18TH JUDICIAL CIRCUIT, IN AND .FOR SEMINOLE COUNTY FLORIDA
Page: 1
.Case # 2013CF002709A
t
08/27/2014 2:04 PM
OBTS # 5901133078
STATE OF FLORIDA vs SECKINGTON, CHRISTOPHER MICHAEL
Agency: ASMU
DOCKET SOUNDING Opened At 01:33 PM on 08/27/2014 'in Courtroom Jl, With the Following:

■
>1

I2

3
4

.Deputy Clerk: PATRICIA TABOR
Circuit Judge: DEBRA S NELSON
State Attorney: B. BYNUM/M. MCCARTHY/S Defense Attorney: HAUSLER, JUSTIN GARY
Deputy Sheriff/Bailiff: T. DEMPS
Public Defender: S. BRYSON/D.. MEGARO
Court Reporter: DIGITAL
Charge(s):
Bondsman
Citation
Bond
Description
TRAFFICKING IN AMPHETAMINE OR METHAMPHET,
MANUFACTURE METHAMPHETAMINE
POSSESSION OF NOT MORE THAN 20 GRAMS OF
USE OR POSSESSION OF DRUG PARAPHERNALIA

t

Defendant Was: Present for DOCKET SOUNDING, In Custody, Sworn
State Attorney B. BYNUM/M. MCCARTHY/S. STONE Was Present
Defense Attorney HAUSLER, JUSTIN GARY Was Present

(
,

For All Charges:
,
Defendant returned to custody
The Court granted defense motion to continue

i

(Docket Sounding continued to 09/24/2014 at 09:00 AM in Courtroom 5D, at the Criminal
|justice Building, 101 Bush Blvd, Sanford, FL 32773 before Judge DEBRA S NELSON
i
f

(COURT INQUIRED OF DEFENDANT AS TO FERRETTA HEARING.
•COURT FINDS DEFENDANT COMPETENT TO PROCEED ON HIS OWN BEHALF.
.DEFENSE MOTION TO WITHDRAW WAS GRANTED. COURT ANNOUNCED JUSTIN HAUSLER WILL BE STAND BY COUNSEL.

i

I
i

Judge:
(RECEIPT OF DEFENDANT:
’I hereby acknowledge receipt'of the foregoing •
'X
Defendant's Signature

’ Address (include City, State •& Zip)

Phone Number

If you are a person with a disability who needs any accommodation in order to participate in
this proceeding, you are entitled, at no cost to you, to the provision of certain assistance.
|Please contact the ADA Coordinator, Court Administration, 301 North Park Avenue, Sanford,
FL 32771, telephone number (407) 665-4227 at least, 7 days before your scheduled court
appearance, or immediately upon receiving this notification if tHeTtime before the scheduled
appearance is less than 7 days; if you are hearing or voice impaired, call 711.
(

Record On

L

t

*

[QX •

r

i

o
EXHIBIT E

Chris

\ OI 1

E

Tail (Vo, /'i

Oafe September %.X^N
R E: fi2e Ate. ■ 20/3 -dF -XfO^A
jr

J3

TP- Judge l\kJ£Q/\
» 1

:A-

>?:o

.o

9:

~€SST

CP
C am reftu-esTj
<s<- l\J-eJ&y/) Hr tari ng cuntfe pWfir
:jor+ "thtszofi
of *
tVve. fi> Pouring1 /n
___________________
1, 0
-)SMH Z wAueiteJ- Apr, //aus )#' ^ro

S-eJt ;6- Kf>i> ri'ny Arfe. .-for ^ yW. fft^Pcfldyv Ut&T/A.-g

ahi h* hfiA Y\of~d/>ine^ ^6 yti.

•

X On ^i^H 'rffliu^y /Dr Hester

••

1--*•

•■

,_

io CjyJr-P^ &£■ H50 Wh^yi-iJ- pcunori h! tus>
C.(mcJer cLnd.~?*e& f V ke i s^Jive • £~-f 5o eLe^os^t
Aim, /Hr HaLs ff/v has
yef. '
_
_____
3. Pm 6-)#-/q ~L rf^jyeste/i /Dr, lousier 4-a _
^e4~ me a. £o py of A.a$g- €>tefe v, Ptv nno, AV3
So,Oz-i, )/££ 7 H^bcPt \WH\ ujhi cM is 4-hesujPpgrhV^
cast for /Vr Blavikiozs's moh'on h> ctesmtSS ’rJjxte d
/&M±f- w\av
2.0 N. Mr I4&,uslcr has not pmxsi'deA
*' ______
me & comy OT ^rfacfe V; Fin no
H jE* F&fove&l'~‘&JL to faiLor or he^cd -tfnt dipped
in. 4isU cf^ /7)rJViUsifir h&s not djow tp yed-.
. *v. r regup^tei. Hlr Wnusktjr kv pn>ytder me
W/ 7h pitJ-srpeji o£ The jrurj.*hle evl'dfMce. /4-e
Kaj; naf /iorre. so ye^h
~
4. It
Mr llwsltr b proi/tde nog^.witt
(k COfXy G& 4i\e f&isCfivejfy i/rfWrwrf
intW -S C-#6£ -__
M A!fj>.
H P„hrls not do\f\£ <?>0y&F,
7t /Vas t i/v> por-fay) 'tty } 7¥)c, Hr<X(Ji i ■fir. /las
hfl7
ej 737/1 e>*|fwf Wtpn£s5 hW^ w«
4^K-Cy t’hat f-hg ajfrolnehLmiy>e man o £u-c'hjf i *\<y
pro&pjs was- OXmpleffe o^yj, 4~k«. liquid
&$~fiyv' iVe. was uK>US<^blR wsfe
vua asrc

n

pprrurl nn fipMjal pa*611

n

n

7YVr

l

dbne ridmyy \q_------

tvv6. w/*H<v j-Uis

3’~CJ=r~^-^Ocf /"t*—-j-—

vu fe ft FOR g, ■ r f^ue&t
frftdrnty to teJj&CtCP f7)rlkus!tr <%6 L freest fo__—_
update. my reffax.em&M Attorney- ^rKw/tk.----2pjkp-ecffivM y 'Sukrvuifefrf ii^l^ tf'rkrbcv~s '<&

fS^T.^ivVfer, XOlwT^

_____ ._\. .
•

_____

Chl/M

jinn's S&Jtf Mfk>v)
13 -icmo g
2.1/ Busk Blv*.
Sawg^rdl Ft 32773

fifiraYffL Oft ApfWeJ posy

M3.

——_

Hausler failed to obtain certified copies of Petitioner's occupational licenses to do 24 hour
emergency repairs and remodeling for the past 23 years using his residence as a place of business.
Hausler failed to do items a-m on page 6 of Petitioner's § 2254 Motion (See Appendix G page
6).
Hausler failed to state sufficient facts to show that Defense Counsel may very well have
prevailed on a more artfully presented motion for judgment of acquittal based upon the evidence he
iiour

alleges was presented against Petitioner at trial. (See Appendix G page 10).

Hausler failed to advance the Lack of Knowledge of the Illicit Nature of the Cdiitrolled
Substance” theory at trial. (See Appendix G page 13).
Hausler failed to hire an expert witness whose testimony would have been exculpatory at trial
■ave

(See Appendix G page 15).

Hausler failed to investigate and challenge the constitutionality of ANY MIXTURE (i.e. pddl
water, toilet water, liquid waste, or dog crap) in Florida Statute § 893.135 (l)(f) (See Appendix G page
Pkroiicd

24).

Hausler failed to file a motion to dismiss under Florida Statute § 3.190 (c)(4) where Petitioner
would have taken the 7 year plea offer had the 3.190 (c)(4) motion been denied. (See Appendix G
30).
Hausler failed to investigate the legislative intent in Florida Statute § 893.135 (7) (Sed
.

Appendix G page 32).

. -O t:;

page

.'•■i-volle.i

Hausler did not prepare at all for the sentencing hearing. There were lots of mitigating evidence.
uier

(See Appendix G page 34).

;'’'itvL

Had Hausler discussed the case with Petitioner prior to the trial Defense Counsel would Have
been able to use the following valuable information at trial.
----------- A-bout-^-O-da-ys^r-ior-to-the-ex-ecution-of-the-sear-ch-Avarr-ant^-RQbert-Murr-^-whQ-had-terminM-L.
\.;r-

APPENDIX “F”

I

p;;gc
;■rtvlird
:"'vT/-ce.

.

vV:

pancreatic cancer, obtained permission to live with Petitioner from brother, tenant, Lawrence
Seckington and owner Ruth Seckington until an opening became available at the hospice on or aboilt
August 28lh, 2013. About August 29th, 2013, Robert arranged for the Hospice Nurse Practitionef to
come to the house and through the Medical Doctor on the phone prescribed Robert Murry 15 doses of
intravenous hydromorphone (pain medication) per day for 30 days, and they had a wheel cMi’r
A

delivered the next day. A search warrant was signed by a County Judge on or about September 7th,
2013. About September 8th, 2013, Robert Murry started to leave tablespoons with left over crusty white
:V:

residue and used syringes from the cold process of preparing his intravenous injectibffs!a8f‘
■■

•

hydromorphone in plain view which was about once per hour. When Petitioner observed the spo'pft^
and syringes in plain view he collected them and put them in the cabinet where Robert's new syringes
were in Petitioner's cabinet above one of the office's desks. Petitioner was using the premiss asunis
7i

office and shop for his kitchen and bathroom remodeling business. On or about September 11* , 2013
Robert Murry began to pass out after every intravenous injection of hydromorphone. On Septertifer
'

:

? '•

17th, 2013 Robert Murry had his 7 year old son over for a possible last visit. Robert Murry's son vi&s M
■'-t-'jv

Riddelin or Adderal, a child behavioral medication made of methamphetamine. Robert Murry parsed
out in the master bathroom with the door shut and locked. His son had to urinate so he did so in tw$3'2
ounce plastic bottles with some household cleaner and waste already in them. Petitioner was una'Cvife
i

of this. When Robert Murry came to he placed the 32 ounce plastic bottles in the closed shower stall
that contained a

few 5 gallon paint buckets and other household cleaning supplies. Petitioner life

unaware of the urine until January of 2015 when inmate John Williams, at Apalachicola CorfedtBhM
Institution informed him of the story told to him by a prisoner in Citrus County explaining the ev'eful
that occurred in Altamonte Springs where a Defendant was sentenced to in essence life for a couple of
soda bottles of urine from a kid on Adderal or Riddelin.
At an unknown time in the afternoon of September_l 7th. 2013 Petitioner was pulled over on his
way to his bank and arrested. In the late afternoon prior to the search of the premiss Robert Murry lid

z
US

it't11

returned with two adults, one male one female. They had parked in the park behind the residence afid;
used the keys petitioner had provided him with on August 28th, 2013, to gain entry. At an unknown'
time in the evening of September 17th, 2013, the search warrant of Petitioner's residence/office uricf
shop was executed.
When the police called Lawrence Seckington and notified him to come and open the front dodr
: ;*

. i f'

Lawrence informed Robert Murry and his two comrades and they hastily fled out of the back door.
Petitioner was informed of this by letter from Lawrence in March of 2015. Lawrence Seckington vl&
never deposed or questioned by Defense Counsel. During the search Law Enforcement recovered>$§B’
t-

'<1 A. i f ‘

32 ounce plastic bottles and extracted samples of unknown liquid from each. The unknown liquid WSs
SLi
sent to the DEA Lab, who five months later claimed that the unknown liquid tested positive for trace
amounts of methamphetamine and weighted over 14 grams. Defense Counsel never had the unkn<$yft
liquid retested to determine the amount of usable methamphetamine it contained as Petitioner had
requested numerous times (See Appendix E Exhibit E). At trial the DEA Agent, Charles Lo<$f|f
testified that “to make methamphetamine in this instance with the one-pot, amonium

nifriil

fertilizer....Coleman Fuel...pseudoephedrine....starting fluid....lithium strips, you’re adding water

to«a

of this, so it just makes a very very explosive container.” (TT 62-63). Locher testified that his “traihffig
and experience” led him to believe that they were one-pots but provided no scientific proof of thit 'St
trial. Agent Locher then testified (TT 82-115) “In these two pictures, were you able to see items tfiaf
your training and experience tells you could be used towards the manufacture or ingestiofr pf
methamphetamine?” The State showed a picture of an empty 16.9 ounce mountain dew botlev'ff
Defense Counsel had asked an expert witness about the mountain dew bottle he would have discov&^l
that a 16.9 ounce bottle was way to small to be used for the manufacturing of methamphetamiiiel
Defense Counsel should have motioned for the exclusion of the mountain dew bottle as the State fdil^
‘S

to prove relevance, finger print evidence,. testing_of the prior contents.
■'f C.T £

evidence. The State then presented a picture of a “Gatorade bottle has some kind of liquid in it. I wasfi’t

3

trie. /:•

ISi

sure exactly what that was until we did testing on it.” Defense Counsel never discussed the “Gatorqde
bottle” in question with the Petitioner. He never objected to the inclusion of the Gatorade bottle or tried
/

to determine the results of the testing done on it yet it was allowed to be State's exhibit eleven when i^
was completely irrelevant. The State then presented the picture of an empty container of table salt and
stated “which is used in the end stages of the manufacturing methamphetamine.” Defense Counsel
l'::

falieo
- •:

never discussed the picture of the empty table salt container with Petitioner or motioned for The

exclusion of the empty table salt container as the State failed to prove the empty table salt container
■ &i\

that was to be used in the final stage of the manufacturing process was going to be used. The Sthte
failed to prove relevance, produce fingerprint evidence, failed to test the prior contents or collect the
container itself as evidence as such the Florida and Federal rules of evidence require the exclusiotfdf
prejudicial and irrelevant evidence. The DEA Agent Charles Locher then testified that “you haye.%$ih|
plastic tubing there.” inferring that plastic tubing is used in the one-pot manufacturing process. HhB
Defense Counsel done the appropriate research and consulted an expert in the one-pot manufacturing
process he would have discovered that plastic tubing is not used in the one-pot manufacturing process
therefore, the picture of the plastic tubing is irrelevant prejudicial and against the rules of evidence aiid
Defense Counsel should have motioned for the exclusion of the picture of the plastic tubing, fi&d
Defense Counsel discussed the picture with Petitioner he would have informed Defense Counsel"i||t'ft
was a picture of a broken computer cable that needed replacing. Next Locher testified “and then 'll
rubbing alcohol can also be used.” had Defense Counsel questioned an expert in the process ;o:f
manufacturing by the one-pot method he would have discovered that rubbing alcohol contains-d
minimum of 9% water and would have caused an immediate explosion if combined with the required
chemicals necessary to manufacture methamphetamine. Defense Counsel should have motioned fofltfil
...

exclusion of the picture of the empty bottle of rubbing alcohol. The State failed to prove reie^Mbiproduce fingerprint evidence, failed to test the prior contents or collect the c.ontainerjLtsclflasjeyider^e:
Had Defense Counsel discussed the picture of the empty container of rubbing alcohol with PetitibiM

he would have found out it was put there to remind him to buy more for his first aid kit. Locher then'
testified about State's exhibit Fourteen stating “You see the gas treatment behind, that’s used in ®
process, the initial process of manufacturing methamphetamine, not the end process.” Had Defense
Counsel consulted an expert in the one-pot manufacturing process he would have discovered that the
(■'tne

cost of gas treatment is prohibitive, costing three dollars or more for eight ounces while a more
desirable and more commonly used charcoal lighter fluid costs less as most organic solvents cost fifty

,■

cents for eight ounces, the use of gas treatment is unheard of in the one-pot method of manufacturing
. :Y '

fAj.

methamphetamine. The State failed to prove that anyone was seen using the gas treatment^
manufacture methamphetamine as such the State failed to prove relevance, produce fingerprint
i

evidence, failed to test the prior contents or collect the empty container itself as evidence. This requites
the exclusion of prejudicial and irrelevant evidence. Had Defense Counsel discussed the picture df'tji'e
empty bottle of gas treatment with Petitioner he would have been informed that for Petition!®
company vans he fills the empty gas treatment bottles with transmission fluid and stores them in the
• S' jrV *\

engine compartment, as 8 fluid ounces is usually the perfect amount to add and the bottles neck is ver^
narrow and fits nicely into the filler tube resulting in minimal spillage. Locher then testified about
.i,te­

state's exhibit 12 stating “The propane fuel is used for initial manufacturing” had Defense Court®
discussed propane with an expert in the one-pot manufacturing process he would have discov£re®liit
'' ''j'-ii-'V

propane is not used and cannot be used in the manufacturing process. Defense Counsel should Havd
motioned for exclusion of the picture of propane fuel and in failing to do so provided ineffective
assistance of counsel. Locher testified about exhibit 15 stating “the plastic jars” that’s a “pro^Sfe
thing”... “But the plastic jars right here is another jar with liquid in it, unknown liquid.” The Stltd
failed to prove any of the items in exhibit 15 were used or were going to be used in the manufactufih^
process. Had Defense Counsel discussed exhibit 15 with petitioner he would have informed birfi If®
State's exhibit 20 shows a bag of butterscotch candy which Petitioner intendedJoJillJhe^iasticjur-Wtii
and place it on the top shelf in exhibit 15 along with the 11 other jars of candy. Defense Council's

5

OWU

failure to try to have exhibit 15 excluded because Florida and Federal law requires irrelevant and

X. A. C.

■4M-

prejudicial evidence to be excluded, resulted in ineffective assistance of counsel. Defense Courisel
W

%;v.;

failed to object or motion for exclusion of exhibit 19 “that area where you were talking about .the

p. -

plastic jars?” Which was irrelevant and prejudicial to the charge of trafficking in amphetamine. Locher
■ f V* fd

testified about State's exhibit 20 next stating “yes” to the question that the “propane thing” was, a
: -• ; 'i bui
propane lighter and “that with various plastic bottles that are used to manufacture that one-pot method.”
Had Defense Counsel consulted Petitioner about the “propane thing” he would have informed Defetisfe
Counsel that it was a broken soldering torch on his construction desk for repair and the plastic bottles
were empty spring water bottles used to combat thirst. Next Locher testified about the State's 16 which
shows a picture of a medicine cabinet/first aid kit which contained among other medicine and first kici
supplies “Hydrogen peroxide up front”...’’rubbing alcohol”...’’Cotton swabs” Had Defense Cd|iti|e|
consulted with a one-pot expert he would have found out that hydrogen peroxide, rubbing alcohol fed
cotton swabs are not used to make methamphetamine and should have motioned for exclusion$c|f
■ u.fcd

exhibit 16. Next Locher testified about State's 17 stating “you got the needles for one thing...cotton
swabs...your spoons have a white substance in it...syringes...butane lighters” Had Defense Counsel
consulted Petitioner on exhibit 17 Petitioner would have informed him that the white substance on |M
- .a

m..

spoons was hydromorphone from Petitioner's room mate, Robert Murry, who was dying of panBfbatfl
cancer and self administering intervinious injections of pain medication on an hourly basis using a
syringe each time. No lab report was ever done on the spoons; However Detective Weber testified, n^
used 5 methamphetamine test kits on the 5 spoons which all showed positive results. Weber 'fen
testified that he used 5 methamphetamine test kits on the 5 cotton swabs which all showed positfe

m

results. Weber then testified he found 8 vials of suspected powder methamphetamine weighing'i'0
grams total and used one methamphetamine test kit on one vial, which showed positive result^^Tf
134-135). Had Defense CounseLconsulted. with-Eetitioner. about-the..8_vials prior-to-the-triaUie wO^l'd
have been informed that the 8 vials were dietary salt substitute. No lab report was ever presented ta tiie

6

W\

u
«

.

.

.

. .

Defense or to the Jury which was led to believe that all 8 vials field tested positive for a total of :10
grams of methamphetamine and was extremely damaging State's evidence against Petitioh|&
Competent counsel would have had the 8 vials lab tested and excluded as evidence at trial. State's
exhibit 21 shows about 10 used carpet razorblades, a pill bottle and a pipe with “burning.” Competent

.M

counsel would have pointed out there was no field test or lab report or finger print test on any of the

items in exhibit 21 and moved for exclusion. State's 23 shows a picture of “green leafy substance, yeah
possibly marijuana....little baggie...white powered in it possibly methamphetamine” No lab report li'i
or
finger print test was ever presented to the Defense or Jury. However, Defense Counsel never objected
to or motioned for State's 23 to be excluded. Competent counsel would have. Counsel provided
ineffective assistance of counsel. State's 24 shows a picture of over $750.00 of small construction tools
which contained a “mask...with the two air purifying respirators...used in the manufacturiri|1(bf
methamphetamine.” No field test, no lab report or finger print test were presented to the Jury. Hdb
.ill
Defense Counsel consulted Petitioner he would have been aware that the respirator was for painting 'i:n
Petitioner's kitchen and bathroom construction company whose official shop was the residencfe-^f
alleged scene of the crime. State's 26 and 27 are pictures of a tool box containing over $l,000.00!6f
specialty tools for plumbing. Locher testified that the calculator, a copper fitting and BB's “a lotSf
times...there for the cook.” Had Defense Counsel consulted a one-pot expert he would have re^iizM
that Locher was no expert and entirely reaching beyond speculation and motioned for exclusion wShid
have been recommended and required by Florida and Federal law. In State's 30 Locher testified that
“And see all the colors and different colors here,” when the picture plainly showed that on top was '&
layer of clear liquid and on the bottom appeared to be what looked like wet kitty litter or floor dry^there
were “no colors”. Locher testified “That’s your ammonia nitrate” when in fact if ammonia nitrate y/as
used it would have been mixed in the sludge on the bottom. Locher then stated “your pseudd Jfi^
here. They could have used white pseudo also.” Wh

•. yiMi

mixture it would have dissolved right away and been suspended in the clear liquid. Locher then state's;

7

.ai'i

Mm
“And then you see your lithium strips, the little black spots is lithium strips,” when in fact lithium strips
are not used, the lithium must be small clumps and dissolve in the sludge. Locher then state's; “arid
•ji.; -,. i

then see the copper? That could be some copper from what he had in there earlier.” Had Defense
Counsel consulted a one-pot expert he would have been aware that copper is never used in the one-ppt
*va.>

process and moved for exclusion of the conclusion that these pictures were scientifically proof of
“one-pots”. State's PP is a syringe with a “little bit of liquid like its possibly been used or set to be
used...would that be relevant to the manufacture or possession of methamphetamine?..The use!5’
Defense Counsel provided ineffective assistance of counsel. By not objecting to the fact that there wds
f-Y

no lab report on the contents of the syringe as Petitioner claims it would have been likqljy
hydromorphone and should have been excluded. Defense Counsel should have discussed the syririgd
■ if

f

evidence with Petitioner and had a lab test done on the syringe prior to trial. State QQ was 3 pipeSfhit
were never field tested or lab tested. Allowing the State's testimony that “one is defiriitel^
..

v,-

methamphetamine and one is marijuana.” go unchallenged shows how trial preparation is non-existent
which is I.A.C. State's RR was 2 butane lighters (Bic brand), Allowing 2 common lighters to be usedl^
evidence without challenging their admissibility was ineffective assistance of counsel. State's SS
testimony was “its the spoons containing the white powdery substance.” This testimony alone was afr it
took for the State to have admitted into evidence 5 spoons that detective Weber testified he field ,tested
" -r y-tiitv

all the spoons for methamphetamine when in fact Petitioner knows they were used for prepaftrig
hydromorphone. State's VV were “several funnels” Defense Counsel was I.A.C. Because it is frrit
unusual for a construction company to have funnels in the storage closet in there office. State's XX
were “Coffee Filters” no evidence was presented that the coffee filters were used by Petitioner- or
jfu-

anyone else to manufacture methamphetamine. It it not unusual for a construction company to ba\te
coffee filters in the office pantry full of coffee^ cream and sugar. Defense Counsel provided ineffScrtl^'e
assistance of counsel by not objecting and motioning for the coffee filters exclusion. Had Defence
■S. ■ 1

’

Counsel discussed State's UU with Petitioner and an expert in the one-pot method he would h&e
•V'-y
%

AY?
C* 1
■l

;

discovered that the “notes or recipes” were not for manufacturing methamphetamine by the one-pot
method and had them excluded. State's 00 or exhibit 40 was 2 grams of suspected cannabis which waS
never field tested or lab tested. Had Defense Counsel discussed the suspected cannabis with Petitioner
'I;:

he would have discovered there was a high probability that it was not cannabis but a form of legal
•.i: .'

im

smoke and Petitioner would have insisted on it being lab tested. Defense Counsel’s allowing-it to be:put
is

into evidence without objection, scientific proof, or a motion to sever amounted to ineffective
assistance of counsel, and severely prejudiced Petitioner at trial. State's NN or exhibit 41 were thB'’8
"iT'l

vials of white powdery substance of which only one was field tested and Detective Weber stated hadM
positive for methamphetamine result. Had Hausler discussed the contents of the 8 vials prior to triaffie
would have been informed that they contained Petitioner's dietary salt and should have been lab tesj^d
and excluded instead, it was allowed in as State's evidence as proven 10 grams of methamphetamiitei'
All this questionable evidence that could have and should have been excluded by objectiofi dr
motion or both was a deciding factor in the jury verdict. By Defense Counsel not objecting to and
motioning for exclusion of the questionable evidence was a classic case of I.A.C. By Hausler nd^ef
>• 'U

objecting to any of the State's exhibits, by not properly investigating them, having them tested by hii
independent lab^by not calling upon an expert in the field he had no knowledge of, all proved he Wa3
operating under the “Ethical Conflict” and did not have Mr. Seckington's view or interest iti-'his
innocence.
>...n

Hausler did not operate at a level that other attorney's would have.

if,!

Mil

-•Kn —• ..i !.

1

i

'

I

GROUND ONE:
The Trial Judge reversibly erred by knowingly reappointing counsel that was not
conflict - free and Defense Counsel was ineffective for failure to withdraw from
representing the Petitioner after filing a “Motion to withdraw as Counsel of
Record” that cited an “ethical conflict of interest” and an “irrevocable broken
attorney/client relationship” that was granted by the Trial Judge, thus violating
Petitioner’s 14th and 6th Amendment rights to the U.S. Constitution.
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was presented to the Trial Court and to the 5th DCA as ground seven of Petitioner’s
3.850 (See Appendix E page 43-46), Ground Seven of his 2nd Amended 3.850 (See Appendix D
page 41-42a) and Ground Seven of his Initial Brief on appeal of his 3.850 (See Appendix F page
40-44).
2. Defense Counsel, Justin Hausler was appointed counsel of record in June of 2014 and Petitioner
immediately instructed Hausler to:
(a) Investigate and become familiar with the relevant law on “unusable/unmarketable”
mixtures and challenge the quantity of methamphetamine attributed to Petitioner for
Count One trafficking in over 200 grams of a mixture containing methamphetamine
(b) Have the approximately 10 grams of white powdery substance in eight unmarked vials
suspected of being methamphetamine tested by an independent laboratory because it was
“my” (Petitioner’s) “No Salt” or “Dietaiy Salt” which is gravamen to defending the
constructive possession aspect of Count One.
(c) Have the unknown clear liquid mixture analyzed by an independent laboratory to verify
Petitioner’s rational assumption that no usable methamphetamine can be extracted from
the unknown clear liquid mixture and determine it had no “Street value” and/or “Street
weight” which is gravamen to the lack of knowledge of the illicit nature of the contraband
claim that Petitioner will be pursuing at trial.
(d) Obtain a fingerprint expert to testify that Petitioner’s fingerprints were not on the two 32
ounce plastic bottles that contained the unknown clear liquid mixture with more than zero

/4fPI5M0rx e
Page 6 of 43

grams of invisible methamphetamine because I (Petitioner) suspect that the State is
withholding the negative results of the fingerprint analysis.
(e) Locate and depose Confidential Informant Robert Murry, to establish that he was living
with Petitioner on his side of the residence to prove joint occupancy which requires the
State to prove by independent or direct evidence constructive possession.
(f) Obtain certified copies of jail records to prove Petitioner was already in jail when the
search warrant was executed which will make it more difficult for the State to prove
constructive possession with only property ownership as evidence of possession.
(g) Locate and depose Mike Fortune, Shawn Duffy and his girlfriend Balinda to establish
their presence the day of the search warrant’s execution.
(h) Have an expert certify that the suspected recipe for manufacturing methamphetamine by
the one-pot method was for something else and file a motion to suppress the recipe.
(i) Try to negotiate a plea bargain with the State to drop the trafficking charge because they

Florida

have no usable drug as required by § 893.135(7) and sentence Petitioner to six month in
jail, the standard sentence for manufacturing by the one-pot method in Seminole County
since Petitioner already has served nine months.
(j) File a motion for bond reduction since the State has no evidence to support the charge of
trafficking according to legislative intent as stated by Florida Statute § 893.135(7) quoting
State v. Haves. Chapman and Rolande-Gabriel.

r------- V

^ Qcyf* CQ&& C iflZS

(k) Bring the depositions to this case to jail for Petitioner to hear or read.
(l) Bring Petitioner pictures of the tangible evidence.
(m) Deliver a copy of the discovery information to the Petitioner to keep.
Prior to trial Counsel never performed any of the instructions in items a-m above.
3. On August 12, 2014, Counsel filed a “Motion to withdraw as Counsel of Record” that cited an
ethical conflict of interest and an irrevocable broken attomey/client relationship (R-97) (See
Appendix D Exhibit F).

Page 7 of 43

V

#'

4. On August 27, 2014, the Trial Judge granted Counsel’s Motion to withdraw as Counsel of Record
(R-102) (See Appendix D Exhibit I).
5. On August 27, 2014, Petitioner requested conflict-free counsel to assist him in preparing for trial
by doing the things requested in supporting facts paragraph number two a-m above.
6. On August 27, 2014, instead of the trial judge appointing conflict-free counsel to assist Petitioner
in preparing for trial she made Petitioner represent himself and appointed Hausler who was
moments ago granted his “Motion to Withdraw as counsel of record” because of an ethical
jco*

conflict of interest reappointing Hausler stand-by counsel against Petitioner’s multiple objections.
7. On September 8, 2014, Petitioner filed a motion for a “Nelson Hearing” because Hausler was
refusing to cooperate in Petitioner’s case (R^M4) (see Appendix G).
8. On October 9, 2014, Petitioner requester^ in court,for a continuance to prepare for trial and for the
trial judge to appoint conflict-free counsel to assist him in obtaining subpoenas for witness, obtain
expert witnesses and getting lab reports done. The trial Judge denied the request for a continuance
to prepare for trial and reappointed Hausler who still had done nothing to prepare for trial and still
had the unresolved ethical conflict of interest back to represent Petitioner at trial which she
ordered to start the very next day.
9. Jury selection was the next day and Hausler still had done nothing to prepare for trial.
10. Petitioner proceeded to trial the following day with Hausler or in essence with no lawyer after
objecting to Hausler’s representing him multiple times, where Hausler committed the serious and
fatal errors Petitioner alleges in his 3.850 and 9.141(d) motions. Thus, Petitioner was denied his
14th and 6th Amendment rights as the drafter’s of the U.S. Constitution had envisioned.
11. Deficient performance was the trial court and defense counsel failed to ensure Petitioner had
conflict-free counsel to put the States evidence through adversarial testing.
12. Prejudice is4had Petitioner had conflict-free counsel he would have been acquitted or received
lesser sentence.
(b) If you did not exhaust your state remedies on Ground One, explain why: N/A

Page 8 of 43

rv

....

feyu^jfa).cot»M.mic<ek.'lt)..$>i TcM _

Xp4j«- (XvuLbz£e*se. £ovn$e\ Hia£Jd\&bEdJLk&hl$tAlXmJlSCiMib ..
unknown liquid tons&htJl of anJ-iLe^ gM*>
o4lt,g i+ia/&siax/.c. di&mlgJ^ ^rvi flL
p£ todbtyke&rby£.CotoJbmeAJhiMO^^^ciu^b^eii^Omp
rBoiyfepfe-JA "Hvgr
frv\fl<^ -pm^naiaW 4a 44;^ gAtchg- namuM. be. UftUS&iilp
AaioftliA* 46__
Svb&sJ-tOn ft
* $93, /3ST6) cfi jUe, TftL-lfitfcfriy SkMe^ "Far iU
■ •/

-

-

•

jpAXff&iL.
Jffila£lVfeJ^grfi«^Ttfc .h^ts/atuce..
€te4s..j,W::tte. opinions ih Sfahz. v, Hfly&j7X0.So. JtcL ltffiS'
H4*1. bCA 15?8.\»»•.C6iTediy„cjDr>sirve |f^h(^^.kyhtitf .Th e,.C^\*'»i,QA___
iS plain

jl

yi/Ufri^

fieii poet^jNm^hs^jom,.
* -Cm v^rs ely
ilieX U,.l-. Sjup££mJ^c&uc-t.kelAlUlilve.^£^htLOj£xojd^£ia££S.

O

&<g^fa^3^.alaU,.J3^^
fedsrfe^JJbcj^bfediML^uqa^^X^^

MtJj^i.caJIy. Ite.

iJL^y, .^Ift^-goArjJ, 93* f,3i 1231 (u* 6V WOfiieU 4W^

_

\wV^€ct coauVe voces rwiyifigl wVHv.U^.ufel u/as-he. j "foe^ncgg weight _
......

s&ttendnj

___ _

purposes C jMml&hlYi6ni'7 * *
TheX M»S, Supreme! Court concluded. iiiod fk\i mterprX&tfon
.._.i!»^#rjt!»/j.e*ifa4. /ippn>ajc.L'h..pu.nteU~
l.i3f^CiiffJWl?fi_tktr^J!^
tb d^cW-Mlnc ff%<L (et^H

7^

tke. si/ftentg.1 CUaptwa/v v. U. g>

JlL£d*iJ519Xi39 i\#_ “ All!>ftfrkjtkfc
aMrissefl'!JjjaJEJ
, iii^ XL
4^
1^.^Xe*?k^di^.G^c!l>n^jV.r€/lom\^ +o "Htl^eu 2.1 }.re^>)v.diikc

28

J_S4a^&y Hoyeg orh /Q96? jj\& U,£, Supreme.
C-Qucf'S fEri:€irpre.itob,ar*_o:£^^
Qor Sfoj~£
3>4ai-ofgi Is biisejL}... FldrtA<Lle> hv£Qeking slaMt. U;oj
__
Sa, alryiozf six years fltP+er fo^bontr^ cure&i ajJLhas-ed an fht
plfluV arA unA»*btijv0us
o4- Honda'S Skli/fe ^ S>93. J3S(7 3
~H\olV tVvtrfc r\-twr \A>fiA cl vlokHoft orf florid rn- FeA&aJ Tra.-(ftclurnj
l&MK a*dL Pe^WiOfitr was A&r\itd (yte
Am&iAjfa4rit R^lnrh
4ft 'fcPfeMvg. counsel 4p preset H^p.jruH Hof il) ire-was Keyes'

—Of

hcfcin. Up\flur> VipM/i'or
Sijkt/' fldJJ'ion*' Wfl-S ntrFaj- H>£
r'-esfctfl\$sl wUp>l 'ttxg. Qfa/fJL vjos CjpyidvdtA a^dajUirpe^p/e \A/ere Tke< premiss wa& jointly dcrupleAeuyA-^^ PzHiiontr pevtr ivtd
femwledljae- /*fi
alleged 11 voodo.dru^" viol&btA
CfinS'hlukttKAj
Rl&^ 4t>tke iy^ ftfn-p*dLh\€ni~t ‘Ldut- process ,!* lt& f&tfUrs
OptrJfrr\ I a W Mtr w. SMl; rn So.UttoSO Cf\^ l&dte lolb)
un&friwViCiy^, unreason alie ou^L re&rlfe fa illftp’cJ and altund
ptWgkrw&fvf,__________ ._______________ ____ ______
PtMhontr conkrwes 4o ^ojud heJere^Abh Cauri an Ihoce*ii~
imn urrh) Ke is appoiVhed beJ^sc Counsel cnmpeh>jd encugX 4r>
cJkcuk^g,
aAvtr<(isioj pmcp^& afiibe.
fyiaJ/aWs____

n/ttSea/Hfr*

toQ^fidciMi la g»»ipKifanMe. r>fa/ffe uu)it

C^SO^~Hy rvo Stfen|/jive procrP cJr Ah)\ ^Usaiik Ox^J1
fl^MAn arvL (\ftlasJb-Gdhrie) InalA tW~ "tte rule. otP
/ftnrfy gtoea ^tpy>(y 4t? Dm/gaik rrx'xhsne ea^es.____

n
£c

\

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground One: N/A

GROUND TWO:
Defense Counsel, Justin Hausler provided ineffective assistance for failing to
argue during the J.O.A. hearing that the trial court erred when it ruled that the
Petitioner was the exclusive occupant of the premises where the contraband was
found when the evidence at trial overwhelmingly proved the premises was jointly
occupied whereby the State failed to present independent proof or direct
evidence of constructive possession of the invisible methamphetamine or the
suspected two grams of cannabis, thus violating Petitioner’s 14th and 6th
Amendment Rights to the U.S. Constitution.
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground two was presented to the 5th DCA as Ground Two of Petitioner’s 9.141(d) Motion
and to the Trial court and 5th DCA as Ground Five of Petitioner’s 3.850 Motion and as Ground
Five of his Initial Brief ©n appeal (See Appendix C, page 31B-39B and Appendix D page 32-37
and Appendix F page 29).
2. State’s first witness, Petitioner’s brother, Lawrence Seckington testified that he has suffered from
schizophrenia for 25 years and has accessed Petitioner’s construction office using a butter knife,
which caused permanent damage to the wood surrounding the door knob’s locking mechanism
allowing easy access to the Petitioner’s side of the residence by anyone desiring to enter them.
(TT. 43) Lawrence also testified that Robert Muny was staying on Petitioner’s side of the
premises while he was suffering from terminal pancreatic cancer, and that the hospice nurse
practitioner visited Robert Muny at the premises and had the hospice doctor prescribe him 15
intravenous injections of hydromorphone per day for 30 days (TT. 45-46) which was the source of
the five spoons with white crusty residue, the syringes and Q-tips that were tested by the F.D.L.E.
and the results withheld from the defense while the jury was told they field tested positive for
methamphetamine. (See Appendix I page 43-47)
3. Prior to the search of Petitioner’s construction office and residence he was already arrested at his
bank and was in the county jail when the search was executed. Police confiscated from Petitioner
Page 10 of 43

a smart phone, keys to his office and $ 275 in cash none of which was illegal yet none of these
items were ever returned to Petitioner or his family.
4. Lawrence testified that Petitioner had employees and visitors over to the house everyday and at all
hours of the day and night (TT. 44-45). Lawrence did not know what items the Petitioner’s
employees and visitors brought to the house or took with them when they left (TT. 47).
Approximately one out of three days, Petitioner’s employees and visitors would stay overnight
(TT. 47). Many people had access to Petitioner’s construction office prior to the police search
(See Appendix I). It should be further noted that on the day of the search, Detective Weber’s
surveillance was not ongoing all day nor was he watching the sides or rear entrances to the home,
just the front. Other individuals other than the three individuals that police specifically witnessed
entering and leaving the home may indeed have existed.
5. None of the “contraband” was in plain sight or plain view.
6. No independent proof or direct evidence was ever presented by the State at trial to disprove the
Petitioner’s defense theory that the two 32 oz. plastic bottles that contained the unknown clear
liquid mixture that contained more than zero grams of invisible methamphetamine, the four plastic
containers that contained two grams of suspected cannabis, eight unmarked vials that police
suspected contained 10 grams of methamphetamine and other suspected contraband belonged to
joint occupant Robert Murry or Lawrence Seckington or one of the many employees or visitors.
The State inferred through the Petitioners ownership of the construction office on his side of the
residence that the contraband was owned and possessed by the Petitioner.
7. Had Defense Counsel presented the supporting facts listed above to the trial Judge during the
J.O.A. hearing, the trial court would have granted the judgment of acquittal on each of the two
drug charges.
8. The deficient performance was counsel failed to argue that the premises was jointly occupied.
Cfb The prejudice was the J.O.A. was denied without it.
(b) If you did not exhaust your state remedies on Ground Two, explain why: N/A

Page 11 of 43

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Two : Raised as Ground two in
Petitioner’s 9.141(d) which was summarily denied bv the Fla. 5th DCA (See Appendix C. p. 31B-39BJ

GROUND THREE:
Defense counsel was ineffective for failure to advance the Petitioner’s affirmative
defense theory at trial concerning his “lack of knowledge of the illicit nature of
the controlled substance” violating hi£l4th and 6th Amendment right under the
U.S. Constitution

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was presented to the trial court and 5th DCA as Ground Two of Petitioner’s 3.850
(See Appendix D, page 19-24 and his Initial Brief on Appeal Appendix F, p. 18)
2. Petitioner claims that the unknown clear liquid mixture that contained more than zero grams of
invisible methamphetamine was produced and/or hidden by someone else in a pile of cleaning
buckets in the closed shower stall.
3. Petitioner advised Defense Counsel that his employees and visitors would often pile cleaning
supplies and construction materials in the empty shower stall and it was reasonable for Petitioner
or any lay person to not know that the buckets contained enough controlled substance of an illicit
nature (over 400 grams) to be charged with capital importation or manufacture of
methamphetamine which carries a mandatory minimum life sentence and $250,000 fine.
4. Counsel agreed to present this defense theory to the jury then failed to present either the theory
itself or any evidence to support the theory at trial. Evidence was readily available that no
reasonable person would have know that the unknown clear liquid mixture inside the two 32 oz
plastic bottles contained detectable amounts of invisible contraband just by looking at it. Hausler
merely had to ask the investigators and the laboratory technician at trial if they could have been
certain that the mixture contained detectable trace amounts of invisible methamphetamine by
^V€

____

Hot

Page 13 of 43

With this evidence, Petitioner would have been entitled to the jury instruction on his defense
theory “Lack of knowledge of the illicit nature of the controlled substance” That includes:
“If you have a reasonable doubt on the question of whether
Christopher Seckington knew of the illicit nature of the controlled
substance you should find him not guilty.”
5. When the judge asked counsel if he agreed with the deletion of this crucial jury instruction,
Hausler stated “ Not applicable, Your Honor” and allowed the court to strike it. (T-175, L 1-6; See
Appendix D, Exhibit B)
6. The Trial court gave Hausler a final chance to argue for inclusion of this crucial jury instruction
by reminding the parties that the “Lack of knowledge” paragraph had been deleted. When asked if
he had any final fcdjection to this deletion, Defense Counsel stated “ No, Your Honor”.
7. The deficient performance was Hausler failed to present any evidence to support the theory of
“Lack of knowledge of the illicit nature of the controlled substance” and agreed to delete the jury
instruction on “Lack of knowledge of the illicit nature of the controlled substance”.
8. The prejudice was that but for Hausler’s error the outcome of Petitioner’s trial would have been
different, an acquittal would have resulted.
(b) If you did not exhaust your state remedies on Ground Three, explain why: N/A___________________
(c) Direct Appeal of Ground Three:
(1) If you appealed from the judgment of conviction, did you raise this issue?

□ Yes

0 No

(2) If you did not raise this issue in your direct appeal, explain why: It is an ICA claim whioh is
more appropriate for a 3.850 motion.
(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a
state trial court?

0 Yes □ No

(2) If your answer to Question (d)(1) is "Yes," state:
Type of motion or petition: 3.850
Name and location of the court where the motion or petition was filed:
18th Judicial Circuit Court. Seminole County Florida
Page 14 of 43

Docket or case number (if you know): 13-2709 CFA
Date of the court's decision: July 18. 2017
Result (attach a copy of the court's opinion or order, if available):
(See Appendix) Order Ground Two Order Denying Defendant’s Second Amended 3.850 Motion
(3) Did you receive a hearing on your motion or petition?

□ Yes

0 No

(4) Did you appeal from the denial of your motion or petition?

0 Yes

□ No

(5) If your answer to Question (d)(4) is "Yes," did you raise this issue in the appeal?
0 Yes DNo
(6) If your answer to Question (d)(4) is "Yes," state:
Name and location of the court where the appeal was filed:
5th DCA Florida. 300 South Beach St.. Davtona Beach. Florida
Docket or case number (if you know): 5D17-2623
Date of the court's decision: March 19. 2018
Result (attach a copy of the court's opinion or order, if available):
Dp.lrJ-h Iasf/Wffe
Per Curiam Affirmed (See Appendix ft. -f&to
^
(7) If your answer to Question (d)(4) or Question (d)(5) is "No," explain why you did not raise
this issue: N/A

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Three : N/A__________________

GROUND FOUR:
Defense Counsel was ineffective for failure to hire expert witnesses whose testimony
would have been exculpatory at trial resulting in acquittals for the Petitioner which is a
violation of Petitioner’s 14th and 6th Amendment rights under the U.S. Constitution.

Page 15 of 43

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This Ground Four was presented to the Trial Court and 5th DCA as Ground Four of Petitioner’s
3.850 and his Initial Brief on appeal of his 3.850 (See Appendix D, page 28 and Appendix F page
26).
2. Defense Counsel failed to hire a fingerprint expert to gather and test fingerprint evidence taken
from the two 32 oz plastic bottles of unknown clear liquid mixture that contained more than zero
grams of invisible methamphetamine as well as the 27 items suspected to contain controlled
substance residue which were sent to the FDLE yet the results from the FDLE testing were
withheld from the defense leading Petitioner to conclude the FDLE test results where exculpatory
and definitely not incriminating or the state would have used them.
3. Petitioner argues that such fingerprint experts were readily available for trial, had Counsel
requested same.
4. At a minimum, a jury hearing that fingerprints found on the buckets, bottles and other suspected
illegal items did not match the Petitioner, or they matched other individual would have produced a
different trial outcome, (i.e., acquittal).
5. Defense Counsel failed to hire a forensic chemist to re-test the unknown clear liquid mixture that
contained more than zero grams of invisible methamphetamine, as well as the 27 items sent to the
FDLE for drug testing.
6. Petitioner argues that the independent forensic expert would have confirmed Petitioner’s rational
belief that the unknown clear mixture was not a volatile “active cook” in progress, but urine from
a methamphetamine user mixed with household cleaning supplies that contained a detectable
amount of invisible methamphetamine so minute that no usable amount of methamphetamine
could be extracted from the unknown mixture.
7. Whether or not the unknown liquid mixture contained a usable amount of invisible
methamphetamine was an important distinction for the jury to understand.

Page 16 of 43

8. The independent forensic chemist should have also testified if the suspected cannabis was illegal
or just one of the many thousands of legal green leafy substances available at local smoke shops
that will get a person high, relieve anxiety or was for other purposes.
9. The independent expert should have also testified if the five spoons, three pipes, one syringe and
eight vials contained methamphetamine, hydromorphone or anything else illegal since Robert
Murry was an avid user of intravenous injections of hydromorphone for his terminal pancreatic
cancer.
10. If the independent expert chemist would have established what kind of substance the suspected
illegal items contained it would have raised reasonable doubt with the jury that the Petitioner was

responsible for it. fssW*//y $ ihceftse.
of faille SaJtwcLS presented +o
jv/r-y a£-fc*MpWra.m<rv£ ♦
11. The deficient performance was Hausler failed to hire fingerprint and forensic chemist expert
witnesses that would have provided exculpatory evidence at trial.
12. The prejudice was the exculpatory evidence would have produced a different trial outcome, (i.e.,
acquittal).
(b) If you did not exhaust your state remedies on Ground Four, explain why: N/A
(c) Direct Appeal of Ground Four:
(1) If you appealed from the judgment of conviction, did you raise this issue?

□ Yes

0 No

(2) If you did not raise this issue in your direct appeal, explain why:
It is an ICA claim which is more appropriate for a 3.850 motion.
(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a
state trial court?

0 Yes □ No

(2) If your answer to Question (d)(1) is "Yes," state:
Type of motion or petition: 3.850
Name and location of the court where the motion or petition was filed:
18th Judicial Circuit Court. Seminole County. Florida
Docket or case number (if you know): 13-2709 CFA
Page 17 of 43

-- -

Date of the court's decision: July 18. 2017
Result (attach a copy of the court's opinion or order, if available):
(See Appendix. H p 6) Order Denying Defendant’s Second Amended 3.850 Motion
(3) Did you receive a hearing on your motion or petition?

□ Yes

0 No

(4) Did you appeal from the denial of your motion or petition?

0 Yes

□ No

(5) If your answer to Question (d)(4) is "Yes," did you raise this issue in the appeal?
0 Yes □ No
(6) If your answer to Question (d)(4) is "Yes," state:
Name and location of the court where the appeal was filed:
5th DCA Florida. 300 South Beach St.. Daytona Beach. Florida
Docket or case number (if you know): 5D17-2623
Date of the court's decision: March 19. 2018
Result (attach a copy of the court's opinion or order, if available):
Per Curiam Affirmed (See Appendix D. p. 2nd to last page)
(7) If your answer to Question (d)(4) or Question (d)(5) is "No," explain why you did not raise
this issue: N/A

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Four: N/A

GROUND FIVE:
Defense counsel, Hausler, provided ineffective assistance by failing to challenge
the quantity of methamphetamine attributed to Petitioner for a 15 year
mandatory minimum and a 30 year maximum sentence for trafficking in
amphetamine during trial and at sentencing by failing to argue the trial judge
used an unconstitutional interpretation and/or statutory construction and
application of Florida’s “trafficking in amphetamine ” statute, i rt VIOI aFlOA

C&

W'k

/VfyifiKctlvtdn-f|4o

ftc u. s,

RuWfePage 18 of 43

*'■,

V

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was raised to-the Trial Court and the 5th DCA in Petitioner’s 3.800(b), 3.800(a),
direct appeal and as ground one of his 9.141(d) and 3.850 Motions and in his Initial Brief on
appeal of his 3.850 (See Appendixes J, B, A, D and F.)
2. Petitioner claims that the unknown clear liquid mixture that contained more than zero grams of
invisible methamphetamine used to convict him is urine from a methamphetamine user mixed
with household cleaning supplies.
3. The DEA chemist in the instant case claims she has no idea what the unknown clear liquid
mixture consists of because she was only told to weigh it and test it to see if the unknown mixture
contained more than zero grams of invisible methamphetamine or any other controlled substance.
Her conclusion is that the gross weight is 263.4 grams of unknown liquid and the net weight is
more than zero grams of methamphetamine. (T 158, see Appendix K)\
4. Over 100 inmates that have manufactured methamphetamine which Petitioner surveyed during his

5 Vx

fwe-years of incarceration on this trafficking case who read the transcripts and saw the pictures of
the evidence all claim that the unknown mixture is unusable waste byproduct left over from the
methamphetamine manufacturing process and no usable methamphetamine could be extracted
from the byproduct.
5. The DEA Agent that seized the unknown clear liquid mixture claims that it looked like an “active
cook” or methamphetamine in the process of being made but has no scientific proof of that,
however it field tested to be flammable, highly acidic and tested positive for methamphetamine.
6. The State claims the unknown clear liquid mixture is “a mixture that weighs more than 200 grams
and tests positive for methamphetamine” and even though it may only be urine, pool water, toilet
water or waste materials since it tested positive for methamphetamine it is a “mixture containing
methamphetamine” and that is all that the trafficking statute requires to convict.
7. The Trial Judge during the J.O.A. hearing at trial claimed the evidence at trial was the unknown
clear liquid mixture was usable liquid methamphetamine and was sent to the DEA for testing.
“none of the waste was sent”. (See Appendixes C, Exhibit A p. 167)
Page 19 of 43

V

8. Upon Denying the Petitioner’s 3.850 the Trial Judge changed her mind and claimed the unknown
clear liquid mixture was waste by-product of the manufacturing process in order to be able to

-

deny Petitioner’s Ground One of his 3.850 because the 1st DCA made a “First Impression” ruling til
in Wilder v. State. 194 So.3d 1050 (Fla. 1st DCA 2016), that liquid by-product can be used to
determine the threshold weight for trafficking, and to hell with the Supreme Court of the United
States’ ruling in Chapman v. United States. Ill S.Ct. 1919 (1991) which held that congress

of

adopted the “market oriented approach” to punishing drug trafficking, whereby the “street weight”^ tyhech 15
dU S'^'fihtstzcl v is to be used to determine the threshold weight for trafficking. (See Appendix H, p. 2, Trial
Judge’s order dismissing Defendant’s 3.850).
9. There is no scientific proof the unknown clear liquid mixture is “liquid by-product” of the
methamphetamine manufacturing process. Therefore, Wilder is not controlling, Chapman is.
10. The State never alleges or proves that the unknown clear liquid mixture does not contain
unusable, toxic and unmarketable materials that must be removed before the invisible
methamphetamine can be consumed as required by legislative intent of Fla. Stat.§ 893.135(7)
tv
quoting Chapman stated another way the State never proved the predicate 14 grams of a usable

O'

mixture containing methamphetamine required for “trafficking in methamphetamine” required by
Fla. Stat. § 893.135(7)lwhich is legislative intent.
11. By denying the Petitioner’s motion for J.O.A., the State used an unconstitutional interpretation
and/or Statutory construction and application of State Statute. State Court’s have decided this case
differently than the U.S. Supreme Court on a set of materially indistinguishable facts. This issue is
thoroughly discussed in Petitioner’s Ground One of his Second Amended Motion for
Postconviction Relief, (See Appendix D, p. 11) See Tracey v. State. 152 So.3d 504, 505 (Fla.
2014) “Any United States Supreme Court pronouncement factually and legally on point with the
present case will automatically modify the State’s law to the extent of any inconsistency.” In
Chapman v. United States. Ill S.Ct. 1919 (1991) the U.S. Supreme Court held “Congress*
“market oriented” approach to punishing drug trafficking under which the total amount of what is
distributed” is used.. As such, the total weight of the alleged waste product should not have been
Page 20 of 43

'

used to convict the Petitioner of “trafficking in amphetamine” because the conviction is not
consistent with the “marketing approach” adopted by the U:S. Supreme Court in Chapman SeeSee Griffith v. U.S.. 871 F.3d 1321 (11th Cir, 2017) (also see Appendix D, p. 11, Ground One of
Petitioner’s Second Amended Motion for Postconviction relief)
Also see Griffis v. State. SG5 So.2d 297 (Fla. 1978) “The express intent of the Legislature
was that the Florida trafficking statute be in uniformity with its Federal counter part.”
We base our conclusion on the expressed intent of National Conference of
Commissioners on Uniform State Laws in proposing the Uniform Controlled Substance Act, the
act after which Ch. 73-331, § 12, Laws of Florida, was modeled. In their prefatory notes to the
Uniform Controlled Substance Act, the Commissioners stated: C
“This Uniform Act was drafted to achieve uniformity between the laws
of the several States and those of the Federal government. It has been designed
to complement the new Federal narcotic and dangerous drug legislation and
provide an inter locking trellis of Federal and State law to enable government at
all levels to control more effectively the drug abuse problem.” Griffis at 301
*1 We must also conclude that it was not the legislative intent in enacting
laws of Florida to authorize trafficking as an instrument to punish citizens for
mere possession of a controlled substance in a residence. *1
Although this construction may conflict with a literal reading of Fla.
Stat. § 893.135 an interpretation allowing a conviction of trafficking and
subsequent lengthy or life sentence for mere possession of an unknown or
unusable liquid that test positive “does violence” to the expressed intent of the
legislature.
12. During the J.O.A. at trial, Defense Counsel stated that there would have to be a determination
made whether all the liquid in the two 32 oz plastic bottles was usable. The Trial Judge then
Denied the J.O.A. motion and advised Defense Counsel to do more research and revisit the issue

Page 21 of 43

at sentencing. Hausler did not do more research and revisit the issue at sentencing as the Trial
Judge advised(T4 67, see Appendix C, Exhibit A)
13. Defense Counsel’s deficient performance was that since before the time of Petitioner’s arrest the
law of the United States Supreme Court and in particular the 11th Circuit even more importantly

(\S% FVSupp. Z4 IttH C m. 0. Fkx.OjOiV
the Middle District of Florida in U.S. v. Long^has been that it apply the “marketable” or “usable”
approach to determine the weight of a “mixture or substance”. Given that law and accepting as
true the facts alleged by Seckington, his counsel’s failure to challenge the weight calculations
amounted to deficient performance, particularly because the drug quantities were the basis for
Seckington’s mandatory minimum 15 year sentence and State’s ridiculous plea bargain of 15
years prison followed by 5 years probation that will actually be house arrest or community control
and if violated even once even after 4 years and 364 days you will be given an additional 15 years
in prison with no credit for time served for a total of 35 years incarceration. An Attorney’s
ignorance of a point of law that is fundamental to his case combined with his failure to perform
research on that point of law is a quintessential example of unreasonable performance under
Strickland when there is no conceivable strategic basis for counsel’s failure to object and pursue
the issue^See Griffith v. U.S.. 871 F.3d 1321 (11th Cir, 2017).
14. Petitioner was prejudiced by counsel’s deficient performance because:
Seckington contends that had Hausler effectively argued that the liquids in his case were not a
usable “mixture or substance”, there is a reasonable probability that he would have received a
conviction on a lower degree of a felony and a lesser sentence. And there is no indication in the
record that the Trial Court would have sentenced Seckington the same if the drug weight had
been lower. Petitioner argues there is a reasonable probability that the Trial Judge would have
imposed a different sentence had it known that a lower mixture weight applied.
If Seckington proves the factual allegations he has made, he will have shown that Hausler’s
failure to render reasonable effective assistance not only resulted in an erroneously higher
mixture weight but it also caused the Trial Judge to apply an inapplicable statutory mandatory
minimum 15 years sentence for count one. There is nothing in the record to indicate that the
Page 22 of 43

4

combined force of both those errors did not affect Seckington’s sentence. As a result Petitioner
has alleged facts that, if true show that his counsel’s deficient performance prejudiced him. Had
Defense counsel presented the Trial Court with “binding authority” about what constitutes a
“mixture or substance”, he would have received a lower level of felony and a lesser sentence.
(b) If you did not exhaust your state remedies on Ground Five, explain why: N/A
(c) Direct Appeal of Ground Five:
(1) If you appealed from the judgment of conviction, did you raise this issue?

El Yes □ No

(2) If you did not raise this issue in your direct appeal, explain why: N/A

(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a
state trial court?

0 Yes □ No

(2) If your answer to Question (d)(1) is "Yes," state:
Type of motion or petition: 3.850
Name and location of the court where the motion or petition was filed:
18th Judicial Circuit Court. Seminole County Florida
Docket or case number (if you know): 13-2709 CFA
Date of the court's decision: July 18. 2017
Result (attach a copy of the court's opinion or order, if available):
(See Appendix//, p

1 Order Denying Defendant’s Second Amended 3.850 Motion .

(3) Did you receive a hearing on your motion or petition?

□ Yes

0 No

(4) Did you appeal from the denial of your motion or petition?

0 Yes

□ No

(5) If your answer to Question (d)(4) is "Yes," did you raise this issue in the appeal?
0 Yes □ No
(6) If your answer to Question (d)(4) is "Yes," state:
Name and location of the court where the appeal was filed:
5th DCA Florida. 300 South Beach St.. Daytona Beach. Florida
Page 23 of 43

Docket or case number (if you know): 5D17-2623
Date of the court's decision: March 19. 2018
Result (attach a copy of the court's opinion or order, if available):
Per Curiam Affirmed (See Appendix D. p. 2nd to last page)
(7) If your answer to Question (d)(4) or Question (d)(5) is "No," explain why you did not raise
this issue: N/A

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Five : Raised this ground in 9.141(d) as
ground one which was summarily denied by the 5th DCA (See Appendix C . p 15-31)
GROUND SIX:
Defense counsel was ineffective for failing to argue that reasonable people could
interpret the Fla. Stat. § 893.135(l)(f) in various ways thus forcing the Trial
Judge to construe the statute most favorable to the Defendant rather than
construing the “trafficking in amphetamine” statute most favorably to the State
as the Trial Court did. This error was a violation of Petitioner’s 14th and 6th
Amendment rights to the U.S Constitution.

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was raised to the Trial Court and the 5th DCA as Ground three of Petitioner’s 3.850
and Initial Brief on the appeal of his 3.850 (See Appendix D, p. 24 and Appendix F, p. 23-26).
2. Petitioner proved in his 3.850 and Initial Brief on the appeal of his 3.850 that the “trafficking in
amphetamine” statute is vague and can be interpreted differently by different people thus
requiring it to be construed most favorable to the defendant.
3. Therefore, the term “any mixture” must be construed in accordance with Fla. Stat. § 893.135(7)
which requires the “mixture” to be usable and the mixture in Seckington’s case was deemed by
the State to be made from Coleman Fuel, starter fluid and fertilizer thus the State has failed to
prove the 14 grams for “trafficking in amphetamine” which must now go away.
4. The deficient performance was Defense counsel failed to argue that the “trafficking in
'it in various ways; thus, under

Page 24 of 43

9

“rules of construction” the statute must be construed most favorable to the defendant. In the
instant case that would be that the term “any mixture” would mean any “usable mixture” not any
“unusable mixture” such as urine, toilet water or liquid from the illicit manufacturing process as
the State admitted doing.
5. The prejudice is had the “trafficking in amphetamine” statute been construed most favorable to
the defendant Count One, trafficking in amphetamine would have been dismissed because the
State failed to produce “scientific evidence” of any “usable” methamphetamine at trial.
(b) If you did not exhaust your state remedies on Ground Six, explain why; N/A
(c) Direct Appeal of Ground Six:
(1) If you appealed from the judgment of conviction, did you raise this issue?

□ Yes

0 No

(2) If you did not raise this issue in your direct appeal, explain why:
It is an ICA claim which is more appropriate for a 3.850 motion.
(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a
state trial court?

0 Yes □ No

(2) If your answer to Question (d)(1) is "Yes," state:
Type of motion or petition: 3.850
Name and location of the court where the motion or petition was filed:
18th Judicial Circuit Court. Seminole County. Florida
Docket or case number (if you know): 13-2709 CFA
Date of the court's decision: July 18. 2017
Result (attach a copy of the court's opinion or order, if available):
(See Appendix H . p V) Order Denying Defendant’s Second Amended 3.850 Motion
(3) Did you receive a hearing on your motion or petition?

□ Yes

0 No

(4) Did you appeal from the denial of your motion or petition?

0 Yes

□ No

('54jf-VQur-answer-to.QuestionidIt41-is_?Yes." did you raise this issue in the appeal?--------0 Yes □ No
Page 25 of 43

(6) If your answer to Question (d)(4) is "Yes," state:
Name and location of the court where the appeal was filed:
5th DCA Florida. 300 South Beach St.. Daytona Beach. Florida
Docket or case number (if you know): 5D17-2623
Date of the court's decision: March 19. 2018
Result (attach a copy of the court's opinion or order, if available): Per Curiam Affirmed (See
Appendix D. p. 2nd to last page)
(7) If your answer to Question (d)(4) or Question (d)(5) is "No," explain why you did not raise
this issue: N/A

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Six : N/A
GROUND SEVEN:
Petitioner averres that the 25 year sentence he received for allegedly attempting
to make a couple Of grams of methamphetamine is cruel and unusual punishment
which violates his 8th Amendment right to the U.S. Constitution.

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was raised to the Trial Court and the 5th DCA in Petitioner’s 3.800(a).
(See Appendix B, page 22)
2. At Trial the State accused the Petitioner of attempting to make a couple of grams of
methamphetamine by the one-pot method.
3. The State’s charging information accuses the Petitioner of possessing or manufacturing a mixture
containing 200 grams or more of methamphetamine simply because the unusable/unmarketable
toxic manufacturing chemicals to make a couple of grams of methamphetamine typically weighs
more than 400 grams when combined for manufacturing but not discarded prior to being seized by
police. Basically the State could have charged the Petitioner with “Capital Importation or
Manufacturing of amphetamine” which carries a mandatory minimum life sentence. But the State
choose to only charge the lesser included trafficking in amphetamine charge because the required
Page 26 of 43

experience of the court appointed counsel costs less and 30 years is in essence a life sentence for
Petitioner and the community would more easily accept a sentence of years rather than life for
merely Manufacturing a one day supply of methamphetamine for one person.
4. The Trial Court regularly sentences defendants to a six month term of incarceration for
manufacturing methamphetamine by the one-pot method in Seminole County even if it is there
second conviction for the offense. Inmates in Seminole County typically do three months and one
week on a six month sentence with gain time and good time.
5. Petitioner’s 25 year sentence for allegedly attempting to manufacture a one day supply of
i

methamphetamine for one person simply because he was allegedly caught in the process is grossly
disproportionate to those who committed the same crime but were able to discard the
manufacturing chemicals prior to being caught. Since Petitioner is not qualified for early release
he will do the equivalent of 98 three month and one week sentences before he is released from
prison in 2040. That is grossly disproportionate to those accused of the same misconduct and
constitutes Cruel and Unusual Punishment.
6. The “rule of lenity” described in Chapman and Rolande-Gabriel should apply. See Hart v. Coiner.
483 F.2d 136 (4th Cir. 1973) quoting Furman v. Georgia. 408 U.S. 238, 273, 33 L.Ed.2d 346, 92
S.Ct. 2726 (1972) “That punishment is not severe” in the abstract “is irrelevant, even one day in
prison would be cruel and unusual punishment for the” crime “of having a common cold”.
“The idea of disproportionality as old as the Magna Carta: A free man shall not be amerced for a
trivial offence, and for a serious offence he shall be amerced according to its gravity.”
“Life imprisonment is a “penultimate punishment” Tradition, custom, and common sense reserve
it for those violent persons who are dangerous to others. It is not a practical solution to petty
crimes in America.”
None of these exacerbating circumstances which have led legislatures to allow very long
sentences are present in this case.
.S.eejrjb.acker_v.Garrison. 445 F. Supp. 376 (4th Cir. 1978) In examing the length of a sentence, it is
not enough merely to look at how the crime is “usually committed” or to examine the elements of
Page 27 of 43
\

the crime. The facts and circumstances of a particular case must be considered. It is especially
important to consider the amount of violence or threat of danger to people. The reason for
allowing an unusually long sentence for possession of and unknown liquid do not in Seckington’s
case apply.
'lAlso see Davis v. Zahradnick, 432 F. Supp. 444 (4th Cir. 1977) quoting Weems v. U.S., 217 U.S.
at 368 “a term of imprisonment” might be so disproportional to the offense as to constitute a cruel
and unusual punishment. Moreover, two Circuit Courts of appeal have accepted the same
proposition. Erratic, freakish, and unusual infliction of punishment raises problems of the Eighth
Amendment proportions. Courts should not shirk their responsibility to examine the propriety of
applications of the law which work exceptional hardships on the sanctity and dignity of the
individual. Moreover, when such examination reveals objective facts which establish the arbitary
nature and total irrationality of the application as to particular individual, the courts must make the
appropriate response.''
After examining the nature of Seckington’s offense, the legislative purpose behind the
punishment, the punishment in Florida for other offenses, and the punishment actually imposed
for the same or similar offenses in Florida, the Public concludes the sentence and fine is so grossly
out of proportion to the severity of the crimes as to constitute cruel and unusual punishment in
violation to the 8th Amendment to the U.S. Constitution.
7. Counsel’s deficient performance was he failed to prove that the “trafficking in methamphetamine”
statute is vague thus requiring the term “any mixture” to be construed in favor of the defendant,
meaning the “mixture” must be usable.
8. The prejudice was had counsel obtained a favorable construction of the term “any mixture” the
“trafficking in methamphetamine” Count One would have been dismissed or Petitioner would
have been found innocent because the State failed to prove any usable methamphetamine, much
less, the 200 grams of usable drug the legislators intended.
.(b-)Jf.vou-did-not-exhaust-v.our-State-remedies_onjGround Seven, explain whv: N/A
(c) Direct Appeal of Ground Seven:
Page 28 of 43

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Seven : N/A__________________
GROUND EIGHT:
Defense counsel was ineffective for failing to advise Petitioner that the plea
bargain in Judge Alv
ourt included six months time served on all counts for
a concurrent seven '(7) DOC sentence for the “trafficking in amphetamine”
charge that would have included .the right to anneal the “unusable mixture” <

issue} in v/olariVn to Perm oner l^rh ana. b™JwiemthtM
RightsUS. OnSbWlon*

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was raised to the Trial Court and the 5th DCA in Petitioner’s 3.850 and his Initial
Brief on appeal as Ground Eight. (See Appendix D, p. 41-43 and Appendix F, p. 45-47).
2. Between July and August of 2014, in Judge Alva’s Courtroom on case No. 13-2708-CFA, the
State offered a plea bargain of 180 days time served on all counts in both cases except for a
concurrent seven (7) year DOC sentence for the charge of “trafficking in amphetamine” Petitioner
had 300 plus days time served at this point.
3. Had. Defense Counsel asked Judge Alva if the issue of “unusable mixtures” could be reserved for
appeal, Judge Alva would have agreed because she has never denied a defendant taking a plea
bargain offer from the State the right to appeal an issue of first impression in the State of Florida
before in her life.
4. The issue of “unusable mixtures” being used to establish the threshold weight for trafficking in the
State of Florida was a case of first impression in August of 2014.
5. Defense Counsel’s performance was deficient where he failed to inform Petitioner that the issue
of “unusable mixtures” not being allowed to be used to calculate the threshold weight for
trafficking was dispositive had counsel filed a Fla.R.Crim.P. § 3.190(c)(4) motion to dismiss.
Which meant Defense Counsel’s performance was deficient where he failed to prepare and file the
§ 3.190(c)(4) motion prior to advising Petitioner to reject the State’s offer.
6. Petitioner would have accepted the offer had he been advised properly by conflict free counsel.
The prosecutor would not have withdrawn the offer where it was the originator of the plea offer.
Page 30 of 43

The Court would have accepted the offer because both the prosecutor and defense made the
contract during the pre-trial conference in open court. The seven (7) years DOC sentence would
have been less than the 25 years he received due to the “Trial Penalty” he received for exercising
his right to Trial by Jury on the issue of unknown, unusable and unmarketable mixtures such as
urine, toilet water Or liquid from the illicit manufacturing process being used to calculate the
threshold weight for trafficking.
7. The prejudiced was Petitioner would have accepted plea bargain offer had Counsel advised him
in­twvt f.'led ffe § 3,190 (c3CW ^ Mohfo fo dUs/n/ss
correctly and the Fifth District Court of Appeal would have issued a written opinion in early 2015
and Petitioner at worst would have one year left for allegedly manufacturing less than a one day
supply for one person.
(b) If you did not exhaust your state remedies on Ground Eight, explain why: N/A
(c) Direct Appeal of Ground Eight:
(1) If you appealed from the judgment of conviction, did you raise this issue?

□ Yes

0 No

(2) If you did not raise this issue in your direct appeal, explain why:
It is an ICA claim which is more appropriate for a 3.850 motion.
(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a
state trial court?

0 Yes □ No

(2) If your answer to Question (d)(1) is "Yes," state:
Type of motion or petition: 3.850
Name and location of the court where the motion or petition was filed:
18th Judicial Circuit Court. Seminole County. Florida
Docket or case number (if you know): 13-2709 CFA
Date of the court's decision: July 18. 2017
Result (attach a copy of the court's opinion or order, if available):

(3) Did you receive a hearing on your motion or petition?
Page 31 of 43

□ Yes

0 No

4*

v
L

(4) Did you appeal from the denial of your motion or petition?

0 Yes

□ No

(5) If your answer to Question (d)(4) is "Yes," did you raise this issue in the appeal?
0 Yes □ No
(6) If your answer to Question (d)(4) is "Yes," state:
Name and location of the court where the appeal was filed:
5th DCA Florida. 300 South Beach St.. Daytona Beach. Florida
Docket or case number (if you know): 5D17-2623
Date of the court's decision: March 19. 2018
Result (attach a copy of the court's opinion or order, if available):
Per Curiam Affirmed (See Appendix D. p. 2nd to last page!
(7) If your answer to Question (d)(4) or Question (d)(5) is "No," explain why you did not raise
this issue: N/A

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Eight: N/A

_____________

GROUND NINE:
Defense counsel provided ineffective assistance by fading to argue that the State
never alleged or proved that Petitioner violated the legislative intent of the
trafficking statute which is to severely punish those who deal in “large
quantities” of dangerous illegal drugs.. Xr» vToIolH OYY Orp

l>»4. Cdtostltvr'o/i*
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was raised to the Trial Court and the 5th DCA in Petitioner’s 3.800(b), 3.800(a),
direct appeal and as Ground One of Petitioner’s 3.850 and 9.141(d). (See Appendixes J, B, A, D
and C).
2. The State never alleged Petitioner possessed or manufactured 14 grams of usable
methamphetamine,

ftfyrir&£ by §

+

3. The State never proved Petitioner possessed or manufactured 14 grams of usable
methamphetamine, OA

Page 32 of 43

4
•V.

N

4. Defense Counsel never investigated or became familiar with the legislative intent of the Florida
trafficking Statute and argued that Petitioner is not even accused of violating the legislative intent
of the trafficking Statute and Count One “trafficking in amphetamine” should be dismissed for
lack of evidence.
5. Deficient performance was Counsel’s failure to argue Petitioner never violated legislative intent
of the trafficking Statute.
6. Prejudice was had Counsel argued Petitioner did not violate legislative intent of the trafficking in
amphetamine the sentence would have been less)

Oinci/tdbfiJf’C'C. crP

wod&u Wave-ijefiA te.5s_

(b) If you did not exhaust your state remedies on Ground Nine, explain why: N/A
(c) Direct Appeal of Ground Nine:
(1) If you appealed from the judgment of conviction, did you raise this issue?

0 Yes □ No

(2) If you did not raise this issue in your direct appeal, explain why: N/A

(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a
state trial court?

0 Yes □ No

(2) If your answer to Question (d)(1) is "Yes," state:
Type of motion or petition: 3.850
Name and location of the court where the motion or petition was filed:
18th Judicial Circuit Court. Seminole County. Florida
Docket or case number (if you know): 13-2709 CFA
Date of the court's decision: July 18. 2017
Result (attach a copy of the court's opinion or order, if available):
(See Appendix H ) Order Denying Defendant’s Second Amended 3.850Motion.
(3) Did you receive a hearing on your motion or petition?

□ Yes

0 No
Lq

Page 33 of 43

4
\
k,

(5) If your answer to Question (d)(4) is "Yes," did you raise this issue in the appeal?

0 Yes □ No
(6) If your answer to Question (d)(4) is "Yes," state:
Name and location of the court where the appeal was filed:
5th DCA Florida. 300 South Beach St.. Davtona Beach. Florida
Docket or case number (if you know): 5D17-2623
Date of the court's decision: March 19. 2018
Result (attach a copy of the court's opinion or order, if available):
Per Curiam Affirmed (See Appendix D. p. 2nd to last page)
(7) If your answer to Question (d)(4) or Question (d)(5) is "No," explain why you did not raise
this issue: N/A

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies.
etc.) that you have used to exhaust your state remedies on Ground Nine :
In Petitioner’s 3.800(a) (see Appendix B)

GROUND TEN:
Defense counsel and Appellate Counsel were ineffective for failing to argue the
Trial Court fundamentally erred when it used improper sentencing factors when
imposing a 25 year prison sentence with a 15 year mandatory minimum in
violation of Petitioner’s 14th and 6,h Amendment rights.^) t'kfc(L0hST»

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
1. This ground was presented to the State court as Ground Three of Petitioner’s 9.141(d) which was
denied without opinion (See Appendix C Ground Three of Petitioner’s 9.141(d).)
2. At sentencing the State introduced a document that was prepared by Detective Weber highlighting
all of the instances where Law Enforcement officers had responded to Petitioner’s residence and
requested the sentencing Judge to take judicial notice of the document “within the Court file” and
recommended a 25 year sentence and the sentencing Judge complied

Page 34 of 43

r

s
Tj^

3. By the sentencing Judge taking judicial notice of the document prepared by Weber which
highlighted police responses to Petitioner’s residence that only included unsubstantiated
allegations of misconduct and prior charges that did not result in convictions at the request of the
State which was the only “outside evidence” at sentencing while the State does not deny it failed
to produce even one dollar of usable Methamphetamine at trial constituted reversible error
warranting a new sentencing in front of a different Judge.
4. The deficient performance was Defense counsel and Appellate Counsel failed to argue that the
sentencing court fundamentally erred by using improper sentencing factors to enhance Petitioner’s
sentence by 10 years beyond the mandatory minimum sentence required by statute.
5. The prejudice is had counsels pointed out the sentencing court had used improper sentencing
factors submitted by the, State the Trial Court would have imposed a lesser sentence.
(b) If you did not exhaust your state remedies on Ground Ten, explain why: N/A
(c) Direct Appeal of Ground Ten:
(1) If you appealed from the judgment of conviction, did you raise this issue?

□ Yes

0 No

(2) If you did not raise this issue in your direct appeal, explain why:
Appellate Attorney did not raise it.
(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a
state trial court?

0 Yes □ No

(2) If your answer to Question (d)(1) is "Yes," state:
Type of motion or petition: 9.141(d~)
Name and location of the court where the motion or petition was filed:
5th DCA Florida. 300 South Beach St.. Daytona Beach. Florida
Docket or case number (if you know): 5D16-3987
Date of the court's decision: January 25. 2017
■Result-(att-aeh-a-eopy-of-the-eourt's-opinion-or-erder—i-f-available):-----Motion was denied without opinion (See Appendix C. 2nd to last page)
Page 35 of 43

